<html>
<title> - DOING WHAT'S RIGHT: PREPARING IOWA'S CHILDREN FOR SUCCESS IN SCHOOL AND BEYOND</title>
<body><pre>[Senate Hearing 113-212]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-212

                DOING WHAT'S RIGHT: PREPARING IOWA'S 
               CHILDREN FOR SUCCESS IN SCHOOL AND BEYOND

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING DOING WHAT'S RIGHT, FOCUSING ON PREPARING IOWA'S CHILDREN FOR 
                      SUCCESS IN SCHOOL AND BEYOND

                               __________

                    MARCH 10, 2014 (Des Moines, IA)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                       U.S. GOVERNMENT PUBLISHING OFFICE
87-131 PDF                 WASHINGTON : 2015                       

________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d5b2a5ba95b6a0a6a1bdb0b9a5fbb6bab8fb">[email&#160;protected]</a>  
       
          
          
          
          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
TAMMY BALDWIN, Wisconsin
CHRISTOPHER S. MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts

                                     LAMAR ALEXANDER, Tennessee
                                     MICHAEL B. ENZI, Wyoming
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                     TIM SCOTT, South Carolina
                                       

                      Derek Miller, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)





                            C O N T E N T S

                               __________

                               STATEMENTS

                         MONDAY, MARCH 10, 2014

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1

                               Witnesses

Quirmbach, Hon. Herman C., Iowa State Senate District 23, Des 
  Moines, IA.....................................................     4
    Prepared statement...........................................     7
Guest, Susan, Director of Early Childhood Programs, Des Moines 
  Public Schools, Des Moines, IA.................................    10
    Prepared statement...........................................    12
Merrill, Barbara, Executive Director, Iowa Association for the 
  Education of Young Children, Des Moines, IA....................    17
    Prepared statement...........................................    21
Regan, Christi, Head Start Director, Hawkeye Area Community 
  Action Program, Inc., Hiawatha, IA.............................    23
    Prepared statement...........................................    25
Gallentine, Gabriela, Director of Hispanic Educational Resources, 
  Conmigo Early Education Center, Des Moines, IA.................    29
    Prepared statement...........................................    32
Pierce, Douglas M., Brigadier General, U.S. Air Force (Retired) 
  Mission: Readiness, Norwalk, IA................................    36
    Prepared statement...........................................    38

                          ADDITIONAL MATERIAL

Connie Boesen, Des Moines School Board, letter to Senator Harkin.    56

                                 (iii)

  

 
DOING WHAT'S RIGHT: PREPARING IOWA'S CHILDREN FOR SUCCESS IN SCHOOL AND 
                                 BEYOND

                              ----------                              


                         MONDAY, MARCH 10, 2014

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Des Moines, IA.
    The committee met, pursuant to notice, at 9 a.m., in the 
Mitchell Early Learning Center, Hon. Tom Harkin, chairman of 
the committee, presiding.
    Present: Senator Harkin.

                  Opening Statement of Senator Harkin

    The Chairman. Good morning, everyone, and thank you for 
coming. The meeting of the Health, Education, Labor, and 
Pensions Committee of the Senate will come to order.
    First, I want to thank our witnesses for being with us 
today. I also want to thank Superintendent Tom Ahart and the 
Des Moines Public Schools for having us here at this site, 
Mitchell, and also thank all of you who are involved with this 
Early Learning Center for allowing us to come here and hold our 
hearing.
    I'll make an opening statement. I'll introduce the 
witnesses, and then they'll make their statements, and we'll 
get into a general discussion. At field hearings, what I always 
like to do, during my time as chair, is to perhaps even open it 
for questions or comments from audience members. Hopefully, 
we'll have time to do that.
    I want to thank all of you who are witnesses for all that 
you do to improve the lives of our young children in Iowa, and 
I offer my deepest gratitude for that. I've had the pleasure of 
working with a lot of you in the past and during my years in 
Congress, and I know you know that I have been advocating for 
early childhood education for a long time.
    That interest comes from my strong belief that all children 
are born with the potential to learn and succeed. All children, 
regardless of circumstances, deserve access to high-quality 
education that will nurture that potential. If we as a nation 
are to provide our children with the tools necessary to be 
successful in their school years and afterward, then we must 
all recognize, as I've been saying for 25 years, that education 
begins at birth, and the preparation for education begins 
before birth.
    The Federal Government currently funds a number of programs 
to support early childhood education and care. However, they're 
well short of meeting existing needs. And need I mention that 
there's a lot of different intersecting programs and it's very 
hard to figure out sometimes exactly who is covered by what.
    But we are well short of meeting existing needs. We serve 
fewer than 1 in 20 infants and toddlers that are eligible for 
Early Head Start. We serve about one in six children eligible 
for child care assistance. The Omnibus Appropriations bill that 
we passed in January made some investments. Through the 
Appropriations Subcommittee that I chair, we provided over a $1 
billion increase for Head Start, $1 billion, and a $150 million 
increase for child care.
    Now, that all sounds well and good. But I have to say a lot 
of that was just to make up for the cuts in sequestration. So 
we sort of got out of the hole, and now we've got to start 
moving ahead.
    Just last month, in my first of a series of hearings on 
this, one of the witnesses mentioned that of parents in the top 
quintile of income earners, the top 20 percent of income 
earners, 90 percent of their kids receive access to preschool. 
For children who live in families in the lowest 40 percent of 
income earners, only 65 percent of those children had access to 
preschool. That disparity is simply unacceptable, I believe, in 
our society.
    Why should the access to quality preschool, just like 
access to elementary school or secondary school--why should 
that be determined by your zip code or by the income status of 
your family? It shouldn't be, if we truly believe in equal 
opportunity for all.
    Here in Iowa, the State has made great advancements in 
providing greater access to high-quality early childhood 
education. When you take into account the State's investments 
in the Shared Visions program, the statewide Voluntary 
Preschool program for 4-year-olds, and the Federal investments 
through IDEA, Head Start, and Child Care, Iowa is near the top 
in the Nation in terms of access to preschool.
    However, as I'm sure we'll discuss today, there are areas 
where we can improve. My understanding is that the statewide 
program only requires an instructional program of 10 hours a 
week, or 2 hours a day. I'm a firm believer--and I think the 
research indicates--that a full day of preschool yields far 
better results for children, not just 2 hours. And on a more 
practical note, this part-day structure of 2 hours makes it 
tough on families who have to knit together transportation and 
child care arrangements to make preschool work for their kids.
    Another area where we can improve is geographic equity in 
access. I understand that school districts in Iowa participate 
in the preschool program on a voluntary basis, which is 
shutting out some 4-year-olds in some communities all together.
    Now, again, I have legislation that is pending in my 
committee that I am trying to get through, my Health, 
Education, Labor, and Pensions Committee, this committee. It's 
called the Strong Start for America's Children Act. That bill--
some of you may be familiar with it--significantly expands our 
investments at the Federal level to accelerate the work being 
done in States to support high-quality pre-K. It also 
dramatically increases access to high-quality care for infants 
and toddlers.
    I'd be interested to hear any of your views on that 
legislation. I'm trying to get it passed out of my committee 
before Memorial Day. That's another reason why we're having 
these hearings, to give us more input on changes and things 
that we need to do to mark up that bill.
     I look forward to the testimony from all of you, and I 
want to encourage you all to have a frank conversation on how 
best Congress can support some of the great work that you're 
already doing here in the State of Iowa.
    I'll just introduce our witnesses in order. We'll ask them 
each to make an opening statement, and then we'll get to 
questions and answers.
    First, we welcome Senator Herman Quirmbach. Senator 
Quirmbach was elected in 2010 to his third term in the Iowa 
State Senate, representing Ames and the surrounding areas. 
Senator Quirmbach is the chair of the Education Committee and a 
member of the Human Resources, Judiciary, Local Government, 
Ways and Means committees, and the Education Budget 
Subcommittee.
    Prior to serving as senator, Senator Quirmbach sat on the 
Ames City Council and was Ames Mayor Pro Tem in 2002. He 
received his Bachelor of Arts from Harvard University and his 
Master of Arts and Ph.D. from Princeton University. He is also 
an Associate Professor of Economics at Iowa State University.
    Next we have Susan Guest, who has spent her entire 
professional career with the Des Moines Public Schools and now 
serves as the Early Childhood Programs administrator, 
overseeing all Federal and State grant-funded pre-Kindergarten 
programs. She has spent the past 5 years creating a 
comprehensive system for serving pre-Kindergarten students in 
Des Moines.
    Prior to that, she was principal at Smouse School. She also 
served as Special Education consultant and teacher for the 
district for 14 years. She holds a bachelor's degree in 
elementary education and special education from UNI, her 
master's from Drake University, and her administrative 
endorsement and license also from Drake University.
    We have Barbara Merrill, executive director of the Iowa 
Association for the Education of Young Children and the Project 
Manager for T.E.A.C.H. Early Childhood Iowa. In addition to her 
responsibilities at Iowa AEYC, she currently serves Early 
Childhood Iowa in a leadership role with her early childhood 
professional development work.
    She has worked in the field of early care and education for 
over 30 years, including teaching and child care in Head Start, 
providing family child care, directing a child care center, and 
instructing at the college level. Ms. Merrill has her 
bachelor's degree in child development from the University of 
Maine and her master's degree from Drake University.
    Next is Christi Regan. She is the Head Start director for 
the Hawkeye Area Community Action Agency, as we call it, HACAP. 
Ms. Regan has been in Hawkeye Head Start and Early Head Start 
for 14 years, working as a services supervisor, parent 
involvement and family literacy coordinator, and education 
coordinator. She is also vice president of the Iowa Head Start 
Association. She received her bachelor of science degree from 
Mount Mercy College in Cedar Rapids.
    Then we have Gabriela Gallentine, the executive director of 
Hispanic Educational Resources, Inc., in Des Moines. She serves 
as the director of Conmigo Early Education Center, the only 
five-star, State-licensed, bilingual early childhood program in 
Des Moines. And just so everyone understands, that is the 
highest rating a licensed center can receive from the Iowa 
Department of Human Services.
    For 20 years, Ms. Gallentine has worked in early childhood 
and elementary education, both as teacher and administrator. 
She was recognized by the California State Senate for her 
teaching skills and rewarded by California for her students' 
performance on California standardized tests. She graduated 
with a bachelor of arts degree in education from UNI and a 
master's degree from Chapman University in 2003. And my notes 
say she is the first person in her family to complete a college 
degree.
    Next is Brigadier General Douglas Pierce, a member of the 
executive council of Mission: Readiness, a nonpartisan national 
security organization of senior retired military leaders 
calling for smart investments in America's children. General 
Pierce spent over 39 years serving in the U.S. military. He 
began his military career by joining the U.S. Air Force in 1968 
and then joined the Iowa National Guard in 1974.
    He spent over 20 years in the 132d Flight Wing as the 124th 
Fighter Squadron Operations Officer. He became Vice Commander 
of the 132d Flight Wing in 1999. In 2002, he was transferred to 
the headquarters of Iowa Air National Guard as Vice Commander. 
In 2004, he assumed his duties as Assistant Adjutant General.
    After retiring from the Air Force as a Brigadier General in 
2008, General Pierce decided to continue his public service as 
mayor of Norwalk. That's a town south of Des Moines. It's a 
little town that's a suburb of Cumming, as some of you may 
know. He continues his public service by being involved with 
Mission: Readiness.
    So we have a distinguished panel. All of your statements 
will be made a part of the record in their entirety, and just 
in the order in which I introduced everyone, we'll start off. 
And, if you could, just take 5 to 10 minutes--I don't have a 
clock--well, I've got a watch, I guess--and sum up for us your 
testimony and what you think we need to know as we develop this 
Federal legislation.
    Senator Quirmbach, welcome and please proceed.

        STATEMENT OF HON. STATE SENATOR HERMAN C. QUIRM-
      BACH, IOWA STATE SENATE DISTRICT 23, DES MOINES, IA

    Senator Quirmbach. Thank you, Senator Harkin. I want to 
thank you and I want to thank your committee for your interest 
in this issue and for your good work. We're looking for good 
things for the bill that you're working on.
    Early childhood education is, indeed, a worthwhile 
investment and, indeed, a critical investment for this country 
and for the future of our children. There has been a lot of 
research done over decades to show benefits flowing to the kids 
throughout their lives. The longitudinal studies are just 
amazing and show how many different areas and different ways in 
which the benefits show up years and years later.
    I wanted to talk today about what we're doing here in Iowa, 
and I need to start with a little disclaimer. You mentioned I'm 
a faculty member at Iowa State, so I have to be clear. The 
factual information I'm reporting today is not from my own 
research. It's derived from a variety of sources. The 
supporting documents were all submitted to you for the 
committee's record. So I'm sure that the facts are all right. 
They're just not my facts.
    Here in Iowa, there are a number of different programs 
which help to serve the needs of 4-year-olds, and that's where 
I'm going to be concentrating my remarks today. The statewide 
voluntary preschool program, which was initiated in 2007, 
serves roughly half of the 4-year-olds in the State. We also 
have an older, smaller program called Shared Visions. Of 
course, there's the Federal Head Start program and other 
services. We wind up serving about 65 percent of the 4-year-
olds in the State. That percentage has been growing throughout 
the length of the statewide voluntary program.
    Let me talk about the statewide voluntary program since 
that's the newest and the largest. The word, voluntary, is 
important. It reflects the voluntary nature on both the school 
side and the parent or the child side. Districts in Iowa are 
not required to offer this program. But over the years, since 
inception, we've gotten up to about 90 percent of the 
districts, and 314 out of 348 school districts a year ago were 
offering. So only 34 are not yet offering.
    The ability of parents to enroll their kids in the programs 
offered by neighboring districts is quite liberal. So the 
access is pretty good, but not yet perfect. It is voluntary on 
the part of school districts. It is also voluntary on the part 
of parents and students. Parents are not required to enroll 
their kids in pre-Kindergarten. I'm going to learn from you and 
call it pre-Kindergarten, as best I can remember to do so.
    So 100 percent participation is not our goal. But we do aim 
to increase our participation above the current level, and I'll 
talk about that in a couple of minutes.
    As I said, the statewide voluntary program was started in 
the 2007-8 school year. The enrollment in 2012-13 was 21,400 
students. One of the interesting aspects of our program is that 
we didn't want to force local areas to reinvent the wheel, so 
if there was an existing preschool program--sorry--
prekindergarten program in the area, a school district was 
eligible to partner with that, provided that they met the 
quality standards established in the State program. Some 
districts have taken up that option and are partnering with 
nonprofit groups or even for-profit preschools in the State.
    The funding currently is about $3,060 per student per year. 
That's for the current fiscal year. It is tied to the per-
student formula in statewide, so it's going to go up a little 
bit if we do allow the growth each year. The total currently is 
about $66 million for the current school year.
    The quality standards that I mentioned--it is a minimum of 
10 hours per week. The people that we talked with up in Ames on 
Saturday are offering 12 hours per week. The State requires a 
licensed teacher, and the program must meet one of three 
established quality standards. So this is not glorified 
babysitting. This is real early childhood education with 
qualified teachers and certified programs. That's a summary of 
what we're doing with that program.
    Let me talk about some of the results. Here, the best 
results have been reported by the Child and Family Policy 
Center. Charles Bruner's and Anne Discher's report of last 
year--and a copy was submitted with my testimony--called, 
``Universal Preschool in Iowa Steps Needed to Ensure Equity and 
Access.'' They have looked at our own programs here in Iowa, 
and it combines all of the programs here. But they have looked 
at kids who have and have not gone through that pre-
Kindergarten program in terms of their reading proficiency in 
third grade.
    They have several important findings. First of all, all 
kids from all groups benefit. They looked at the population in 
its entirety, and they also looked at certain demographic 
subgroups. In every case, there was gain. Kids who had gone 
through the pre-Kindergarten program in third grade had higher 
reading proficiency than the group of kids who had not.
    Now, let me make one qualification here, because I'm going 
to talk a little bit about some of those subgroups. What I'm 
talking about here is statistic, not stereotype. We always have 
to be careful when we talk about various subgroups. There is a 
lot of variation within each group. Within each and every 
group, there are some kids who do fantastically well, and 
within each and every group, there are some kids who fall 
behind.
    That being said, it turns out that the percentage of kids 
showing reading proficiency in third grade is lower for kids 
from low-income backgrounds, as indicated by eligibility for 
the Federal free and reduced price lunch program. That's the 
usual indicator. The same is true for African-American kids and 
kids from Hispanic families and Native Americans. For those 
three ethnic groups, on average, the reading proficiency at 
third grade is lower.
    Each and every subgroup, though, gains. And one of the 
things that jumped out at me from the data is for the African-
American kids and the Hispanic kids, their gains in terms of 
percentage point increase for reading proficiency in third 
grade--their percentage increase was among the highest. So 
these are the kids who were more likely to be behind, and yet 
they gained the most from the program.
    But then there's the downside. The kids who gain the most, 
kids from those backgrounds, are the kids who are least likely 
to participate. We're not doing as good a job as we need to in 
reaching out to kids from low-income backgrounds and racial 
minorities to get them to participate. They are the ones who 
need it the most. They are the ones who benefit the most. But 
they are the ones who we are doing the least good job at 
reaching.
    I'll just comment very briefly on a bill that we are 
working on in the State Senate. It has passed the Education 
Committee. It is in the Appropriations Committee, because 
there's an appropriation required. You understand about that 
legislative process. But we want, over the next 3 years, to 
create an incentive program for local districts to increase 
their enrollments.
    We're using a baseline enrollment over the past 3 years, 
and increases above and beyond that will generate funding, not 
just the normal funding for the student participation, but a 
bonus funding as well of about an additional $1,300 per 
student. That's intended to help school districts increase 
their capacities.
    There are a number of school districts that have waiting 
lists. In other districts, they don't bother to keep waiting 
lists. They just turn kids down. We don't have enough seats to 
meet the demand. The information is getting out there. The 
parents are learning. We've got to do a better job at getting 
even more parents interested in getting their kids signed up. 
But we also have to help the school districts to have the 
capacity to meet the demand.
    So we have a cash incentive there for them to increase 
their enrollments over the next 3 years. We're also addressing 
some of the restrictions on the use of those funds. 
Transportation is one of the issues that we keep hearing about, 
and wraparound services.
    I think you know that when we provide 10 or 12 hours a 
week, there's a lot of the rest of the time that the kids have 
to--their time has to be accounted for someplace, especially if 
parents are working. And, of course, Iowa has a very high 
percentage of two-parent families where both parents are 
working. There has to be transportation to child care, or there 
has to be child care onsite. We need to address those issues as 
well.
    I think I've probably exhausted my time. I'd be happy to 
take any questions.
    [The prepared statement of Senator Quirmbach follows:]
               Prepared Statement of Herman C. Quirmbach
                                summary

 
------------------------------------------------------------------------
                                                 Percent of  4-year-olds
               Programs in Iowa                          served
------------------------------------------------------------------------
Statewide Voluntary Preschool Program (SVPP)..                       48
Shared Visions, Early Childhood Special                               4
 Education....................................
Head Start....................................                        9
Early Childhood Iowa (formerly Empowerment)...                       NA
------------------------------------------------------------------------

         the iowa statewide voluntary preschool program (svpp)
    <bullet> Initiated 2007-8 school year.
    <bullet> Enrollment in 2012-13: 21,402.
    <bullet> Offered by 314 of 348 school districts.
    <bullet> Local district can partner with private provider.
    <bullet> Funding: $3,060/student. Total: $66.1M (2013-14).
    <bullet> Hours: minimum of 10 hrs/wk.
    <bullet> Requires licensed teacher.
    <bullet> Must meet one of three sets of recognized quality 
standards.
                              svpp results
    The following table appears in ``Universal Preschool in Iowa--Steps 
Needed to Ensure Equity and Access,'' by Charles Bruner and Anne 
Discher, Child & Family Policy Center of Iowa, December 2013.

                                  Parent-Reported Preschool Participation and Third Grade Reading Proficiency, 2011-12
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                     All students                                                Attended pre-k                      No pre-k
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                Pct                              Pct                              Pct
                                                        Tested   Proficient    profic    Tested   Proficient    profic    Tested   Proficient    profic
                                                                             [percent]                        [percent]                        [percent]
--------------------------------------------------------------------------------------------------------------------------------------------------------
  Total..............................................    36,006     27,607        76.7    26,597     21,027        79.1     9,409      6,580        69.9
FRL..................................................    13,515      8,646        64.0     8,689      5,709        65.7     4,826      2,937        60.9
No FRL...............................................    22,491     18,961        84.3    17,908     15,318        85.5     4,583      3,643        79.5
Wht..................................................    30,497     24,253        79.5    23,445     18,940        80.8     7,052      5,313        75.3
Blk..................................................     1,882      1,028        54.6     1,038        633        61.0       844        395        46.8
Hisp.................................................     2,703      1,589        58.8     1,531        971        63.4     1,172        618        52.7
Asian................................................       777        641        82.5       497        428        86.1       280        213        76.1
NAm..................................................       147         96        65.3        86         55        64.0        61         41        67.2
IEP..................................................     2,190      1,056        48.2     1,635        785        48.0       555        271        48.8
ELL..................................................     2,094      1,177        56.2       986        606        61.5     1,108        571        51.5
--------------------------------------------------------------------------------------------------------------------------------------------------------
Source: Iowa Department of Education.

    Comparisons of the data show:

    <bullet> A higher percentage of third graders are reading 
proficient in total and for almost all demographic subgroups among 
students who have attended preschool than among those who have not.
    <bullet> Low-income (FRL=Free & Reduced Lunch eligible), black, 
Hispanic, and Native American students show lower percentages of 
reading proficiency than non-FRL and white and Asian students.
    <bullet> Black and Hispanic student groups show larger percentage 
point differences in proficiency between preschool and non-preschool 
subgroups than do whites.

    Moreover, students from several Iowa demographic groups who were 
furthest behind and had the most to gain were least likely to attend. 
According to the CFPC data, while 44.8 percent of non-FRL students 
participated in SVPP, only 38.8 percent of FRL students did. 44.7 
percent of white students attended, but only 35.5 percent of Hispanics 
and 26.7 percent of African-Americans attended.
                                 ______
                                 
    In Iowa several State and Federal programs for early childhood 
education are offered, including Early Childhood Iowa (formerly 
Empowerment), Shared Visions, Early Childhood Special Education, Head 
Start, and the Statewide Voluntary Preschool Program (SVPP). My 
testimony today will focus mainly on the SVPP program, which is the 
largest and newest.
    A number of supporting documents are provided with this testimony, 
with additional details on SVPP and information on the other programs. 
Most of the factual information reported here is derived from these 
supporting documents.
            the statewide voluntary preschool program (svpp)
    Initiated by the State of Iowa in the 2007-8 school year, the SVPP 
serves 4-year-old students from all backgrounds. It is currently 
voluntary from both the participant and provider sides: families are 
not required to enroll their children, and public school districts are 
not required to offer pre-kindergarten. In fact, however, in 2012-13, 
SVPP was offered by 314 of 348 school districts statewide, a 90 percent 
participation rate. In 2010-11, the enrollment was 19,799 or roughly 48 
percent of all 4-year-olds. In 2012-13, enrollment increased to 21,402 
4-year-olds.
    At the start of the SVPP, the State awarded each participating 
school district a startup grant in the district's inaugural year of 
offering pre-kindergarten. Subsequently, funding was provided under the 
general State school funding formula. Funding is provided each year 
based on the enrollment count of the previous year. Since the pre-
kindergarten program requires only a minimum of 10 hours per week of 
programming, each child in SVPP was originally funded at 0.6 of the 
funding for a full-time (e.g., first-grade) student. In 2011, that 
ratio was reduced to 0.5. For the 2013-14 school year, in general that 
translates to $3,060 per pre-K student. Total State funding in 2012-13 
was approximately $60 million.
    School districts may offer their own pre-kindergarten programs, or 
they may partner with existing non-profit or for-profit preschool 
providers, or they may combine the two modes. In any case, all State 
funds are directed through the local public school districts, and all 
SVPP offerings must meet certain quality standards. In particular, each 
SVPP program must offer at least 10 hours per week and be run by a 
teacher with an early childhood license. The adult-to-child ratio is to 
be 1-to-10, with a maximum class size of 20. Each program must also 
meet at least one of three approved program standards: the Iowa Quality 
Preschool Program Standards, the National Association for the Education 
of Young Children Program Standards and Accreditation Criteria, or the 
Head Start Program Performance Standards.
                              svpp results
    Two recent reports indicate positive results for students who have 
participated in SVPP classes. A May 2013 Fact Sheet from the Iowa 
Department of Education on the SVPP (provided with this testimony) 
states,

          DIBELS [the Dynamic Indicators or Basic Early Literacy Skills 
        assessment tool] shows that proficiencies among all 
        kindergarteners who attended the State preschool were 12 
        percentage points higher than those who did not. Even more 
        impressive, the DIBELS results show only 33 percent of the 
        children who attended the preschool program are at-risk while 
        44 percent of their counterparts are at-risk for achieving the 
        necessary skills to become a successful reader.

    The Fact Sheet also indicates that ``far fewer students of poverty 
who attended the State preschool will require intensive intervention.''
    A December 2013 report from the Child & Family Policy Center (CFPC) 
entitled ``Universal Preschool in Iowa--Steps Needed to Ensure Equity 
and Access'' by Charles Bruner and Anne Discher (also provided 
herewith) presents information on the third-grade reading proficiency 
of students who had and had not attended pre-school. (These data lumped 
together both SVPP participants and participants in other preschool 
programs.) Of the Iowa third graders who had attended preschool, 79.1 
percent were proficient in reading on the Iowa Assessments, while only 
69.9 percent of third graders who had no preschool were proficient.
    The CFPC report also presents demographic breakdowns for subgroups 
in Iowa. The usual indicator used to identify a student from a low-
income background is eligibility for the Federal Free & Reduced-Price 
Lunch (FRL) program. Among FRL students, about 5 percent more in the 
subgroup who had attended preschool were reading proficiently in third 
grade than were doing so in the FRL subgroup who had not attended 
preschool. Similarly, among non-FRL students, the percentage of 
students showed reading proficiency was about five points higher for 
those who had attended preschool over those non-FRL students who had 
not. The FRL subgroup who had attended preschool was about 20 
percentage points behind non-FRL subgroup who had attended, and 
similarly for the FRL and non-FRL subgroups who had not attended.
    The contrast between racial groups was dramatic. While white 
students who had attended preschool showed a five-point advantage in 
reading proficiency over whites who had not, the African-American and 
Hispanic students who had attended preschool had an advantage of 11 to 
14 points over their counterparts who had not. Overall, 79.5 percent of 
whites were proficient, while only 54.6 percent of African-Americans 
and 58.8 percent of Hispanics were proficient.
    In other words, these data showed that while third graders from 
every group had gained from having had preschool, those subgroups that 
were further behind (low-income, African-American, Hispanic) gained at 
least as much if not more from preschool.
                             svpp problems
    Given the evidence of educational gains from preschool, the most 
obvious problems of the SVPP have to do with students who do not 
attend. In 2012-13, 34 districts (10 percent) still did not participate 
in SVPP at all. Of those that did, numerous districts did not meet all 
of demand. It is hard to know just how many 4-year-olds were denied 
access. Some districts maintained waiting lists, but some districts may 
simply have turned excess students away. (The term ``waiting list'' is 
certainly a misnomer. It seems likely that few students get into 
preschool off a waiting list. The rest just wait for kindergarten, 
having been denied a preschool experience.)
    To my knowledge no statewide data were compiled on the number of 4-
year-olds who wanted to participate in SVPP but who were denied access. 
Overall, in 2010-11 it appears that 35 percent of 4-year-olds did not 
attend SVPP or any other publicly supported preschool, though some may 
have attended private preschool and the parents of others may have 
chosen not to have their children attend at all.
    Moreover, students from several Iowa demographic groups who were 
furthest behind--and therefore had the most to gain--were least likely 
to attend. According to the CFPC data, while 44.8 percent of non-FRL 
students participated in SVPP, only 38.8 percent of FRL students did. 
44.7 percent of white students attended, but only 35.5 percent of 
Hispanics and 26.7 percent of African-Americans attended.
    Additional and/or coexisting barriers to preschool attendance were 
presented by transportation issues and lack of wrap-around services. 
For example, for a parent who works full-time, facilitating a child 
attending a part-day preschool program probably requires leaving the 
job in the middle of the workday to transport the child between 
preschool and day care--assuming, that is, that the parent even has the 
flexibility to leave work and that convenient, appropriate, affordable 
day care even can be found.
                          current legislation
    To address some of the problems just discussed, the Iowa Senate 
Education Committee has recently proposed and passed Senate Study bill 
3155. The bill, now designated Senate File 2268 (SF 2268), has been 
referred to the Senate Appropriations Committee before going to the 
Senate floor.
    Under SF 2268, participation in SVPP would still be voluntary for 
both the school district and for the individual student. However, the 
bill would set a goal to eliminate pre-kindergarten waiting lists by 
the start of the 2017-18 school year. Just as all school districts must 
provide a seat for every first-grade student who registers, so will 
every school district have to find a seat for every pre-kindergarten 
student who registers.
    Financial incentives are provided to each local school district to 
meet the goal of eliminating waiting lists. The bill establishes a 
baseline SVPP enrollment period of the 3 school years from 2011-12 
through 2013-14. The average SVPP enrollment in a district over those 3 
years is the district's base enrollment over which to calculate any 
enrollment increase. (A zero would apply for any year in which a 
district did not offer SVPP.) Then, for the 3 school years beginning 
with 2015-16, for any increase in SVPP student numbers, a district 
would receive a 0.7 weighting, instead of the usual 0.5. A district 
would thus get about $4,500 per student instead of the usual $3,200 per 
student for each increase in the number of SVPP students. The $1,300 
per student difference is the capacity incentive.
    The bill allows such additional aid to be used to help cover the 
costs of expanding capacity. The bill increases the percentage of the 
SVPP funding that can be used for administrative overhead from 5 
percent to 10 percent. The bill clarifies that the costs of outreach 
activities and rent of space not owned by the school district are 
allowable administrative expenses. It also explicitly allows schools to 
transport preschool students to SVPP activities along with other 
children.
    To qualify for the incentive aid, a school district would have to 
develop an approved expansion plan. Among other requirements, such a 
plan would have to specify how the district would reach out to solicit 
more participation, with special emphasis on low-income families, non-
English speaking families, and families from ethnic and racial groups 
that were underrepresented in the school's SVPP program.

    The Chairman. That was very good. Thank you very much, 
Senator Quirmbach.
    Now, Susie Guest, welcome. And, again, thank you for all 
that you have done and are doing for early education in Des 
Moines.

STATEMENT OF SUSAN GUEST, DIRECTOR OF EARLY CHILDHOOD PROGRAMS, 
           DES MOINES PUBLIC SCHOOLS, DES MOINES, IA

    Ms. Guest. Thank you for having me this morning.
    Des Moines Public Schools is the largest school district in 
the State of Iowa. It is home to approximately 32,000 students, 
and of those, approximately 2,000 are preschool students. As a 
district, we exist so that graduates possess the knowledge, 
skills, and abilities to be successful at the next stage of 
their lives. For the Early Childhood Department, this equates 
to kindergarten readiness.
    The majority of children attending preschool in Des Moines 
are funded through the statewide voluntary preschool program. 
The grant requires a minimum of 10 hours of instruction per 
week. However, Des Moines provides 13 hours per week at no 
additional charge to the parents. Classrooms are located 
throughout the district in early childhood schools, such as 
here at Mitchell, comprehensive elementary buildings, as well 
as partnerships with faith-based schools and private daycare 
settings.
    Achieving high-quality preschool programming is 
accomplished through certified teaching staff, ongoing 
professional development, research-based curriculum and 
instruction, and regular analysis of data. Recent data 
indicates children who attended preschool in the 2011-12 school 
year outperformed their kindergarten peers on initial 
assessments in the 2012-13 school year, and they continued to 
outperform their peers on the spring kindergarten assessments.
    Beyond the classroom, what are other components of a high-
quality program for young children? Family and community 
partnerships are key to providing quality programs. Family 
engagement begins at the time of enrollment and continues 
through conferencing, home visiting, resource and referral, and 
family educational opportunities. The Des Moines early 
childhood program is actively involved in community planning to 
encourage strong communication, cooperation, and the sharing of 
information between partners to improve recruitment and the 
delivery of services for students in our community.
    The State of Iowa has invested in early childhood 
education. The statewide voluntary preschool program is a part 
of the State's efforts to provide more opportunities for 4-
year-old children to access quality preschool and enter 
kindergarten ready to learn.
    Children who participate in high-quality preschool settings 
exhibit better language and math skills, better cognitive and 
social skills, and better relationships with their classmates. 
Children who attend quality preschools are less likely to drop 
out, repeat grades, or need special education.
    Des Moines Public Schools has successfully accomplished 
this most important mission of readying the children we serve 
for kindergarten. We have done so by making preschool a 
priority and braiding funding whenever possible. We have also 
created marvelous partnerships throughout the community. These 
partners are as committed to providing early childhood services 
as we are.
    Two examples illustrate these successful partnerships. As a 
district, we are able to provide our families the services of 
school social workers through funding from the United Way 
Women's Leadership Connection. We are also able to provide case 
management and home visiting services through the financial 
support of Polk County Early Childhood Iowa. Such partnerships 
are essential for us to be able to do our jobs of educating the 
whole child.
    However, the fact remains that we are only serving 
approximately 50 percent of the students enrolled in a Des 
Moines Public Schools kindergarten program. Significant 
barriers remain for families and districts. For the families 
that work, the 13 hours of preschool per week is not enough. 
For others, transportation is not available, and a preschool 
may not exist within walking distance.
    For districts, the needs of our families require more than 
10 hours per week of funding for preschool. In Des Moines 
Public Schools, with 70 percent of families qualifying for free 
and reduced lunch and 16 percent of families identified as 
English language learners, their needs for comprehensive 
services are great. Currently, only 29 percent of our preschool 
slots are designated for families at 200 percent of poverty or 
below.
    With any new early learning legislation, consideration 
should be given to policies to improve access and to expand 
enrollment of at-risk children in full-day preschool 
programming. Doing so will provide our neediest children with 
expanded services in all areas of development.
    Additionally, funding for family and instructional support 
services has to be part of the equation. Preschool is not just 
about academic instruction. Although extremely important, it is 
just one piece of the puzzle. Early childhood education has the 
greatest impact when programming is comprehensive and 
responsive to the needs of our families and our children.
    Thank you.
    [The prepared statement of Ms. Guest follows:]
                   Prepared Statement of Susan Guest
                                summary
    Children's experiences in their first years have a profound impact 
on the course of the rest of their lives. Evidence now proves not only 
the dynamic learning potential of children when they are in responsive, 
nurturing, stimulating environments, but also the detrimental effect to 
children when they are deprived of these opportunities. There has been 
a dramatic shift in this country in the past 50 years and more 3- and 
4-year-old children are attending preschool. These changing 
demographics speak both to the tremendous need and opportunity for 
research-based, practice-proven early childhood education.
    Des Moines Public Schools--Des Moines Public Schools (DMPS) is a 
leader and innovator in public education, offering families more 
educational choices than any place in Iowa. High quality preschool 
programming is one of the many choices offered by the district with a 
goal of readying all children for kindergarten.
    DMPS Early Childhood Programs--Achieving high quality preschool 
programming is the goal of our programs. Our certified teaching staff 
participates in on-going professional development supported with 
instructional coaching which are indicators of high quality programs. 
Further, our curriculum, instruction and assessment are developmentally 
appropriate and research based. In addition to analyzing data at the 
classroom level, data is also analyzed at the district level to ensure 
our preschools students are ready for kindergarten.
    Family and Community Partnerships--Family partnerships begin at the 
time of enrollment and continue with parents after enrollment to ensure 
the best possible preschool experience for the children and families we 
serve. Through strong relationships with parents and community partners 
we work together toward the goal of having all children ready for 
kindergarten. We support families through home visiting, by providing 
resources and referrals to support services, and providing families 
with educational opportunities. The DMPS Early Childhood Program is 
actively involved in community planning to encourage strong 
communication, cooperation, and the sharing of information between 
partners to improve the delivery of services for students in the 
community.
    Benefits of Preschool in Iowa--The State of Iowa has invested in 
early childhood education. The Statewide Voluntary Preschool Program is 
a part of the State's efforts to provide more opportunities for 4-year-
old children to access quality preschool and enter kindergarten ready 
to learn. The SWVPP along with other State and federally funded 
preschool programs and community partners in Iowa make up Iowa's system 
for delivering preschool programming.
    Future Priorities--Des Moines Public Schools has successfully 
accomplished this most important mission of readying the children we 
serve for kindergarten. We have done so by making preschool a priority 
and braiding funding whenever possible. We have also created marvelous 
partnerships throughout the community. However, the fact remains that 
we are only serving approximately 50 percent of the students enrolled 
in a DMPS kindergarten program. Significant barriers remain for 
families and districts.
    With any new early learning legislation, consideration should be 
given to policies to improve access to and expand enrollment of at-risk 
children in full-day preschool programming. Doing so will provide our 
neediest children with expanded services in all areas of development. 
Additionally, funding for family and instructional support services has 
to be part of the equation. Preschool is not just about providing 
academic instruction. Although extremely important, it is just one 
piece of the puzzle. Early education can truly endow children with the 
necessary foundation for future learning. Early childhood education 
programs can and do play a pivotal role in providing crucial learning 
experiences for children and their families.
                                 ______
                                 
    A child's first years are a time of amazing growth. Young children 
set out as eager explorers seeking to understand the world and their 
place in it. For children to succeed in kindergarten and beyond, their 
natural tendency to learn needs to be supported and actively engaged in 
powerful learning experiences. Research is dramatically revealing just 
how much complex knowledge children can master at much earlier ages 
than previously thought. Children's experiences in their first years 
have a profound impact on the course of the rest of their lives. 
Evidence now proves not only the dynamic learning potential of children 
when they are in responsive, nurturing, stimulating environments, but 
also the detrimental effect to children when they are deprived of these 
opportunities.
    There has been a dramatic shift in this country in the past 50 
years. The 2011 Current Population Survey of School Enrollment finds 
that 48 percent of all 3- and 4-year-old children attend a classroom-
based program in child care, Head Start, or preschool. By choice or by 
necessity, more children than ever before in our Nation's history spend 
significant amounts of time in an out-of-home environment. At the same 
time, the requirements for children's school readiness upon entering 
kindergarten have risen considerably, as spelled out in our State 
standards. These changing demographics speak both to the tremendous 
need and opportunity for research-based, practice-proven early 
childhood education.
                       des moines public schools
    Des Moines Public Schools is the largest school district in the 
State of Iowa. It is home to approximately 32,000 students and 5,000 
employees. For more than 100 years Des Moines Public Schools (DMPS) has 
provided an outstanding education for students of our community. Today, 
our school district is a leader and innovator in public education, 
offering families more educational choices than any place in Iowa. One 
of the great strengths of Des Moines Public Schools is its diversity: 
the people, the programs, and most of all the opportunities for our 
students. The strengths and benefits which result from that diversity 
are reflected each and every day in the accomplishments of our students 
and staff. As a district we exist so that graduates possess the 
knowledge, skills and abilities to be successful at the next stage of 
their lives. For the early childhood department this equates to 
kindergarten readiness.
    Des Moines Public Schools was awarded the Statewide Voluntary 
Preschool Program (SWVPP) grant in the 2007-8 school year. The program 
started with 1,046 students. Our current SWVPP serves 1,352 students 
with another 562 students served by other funding sources for a total 
of 1,914 students. Head Start funds 424 students and the remaining 
approximately 138 students are funded through State Shared Visions, 
Early Childhood Iowa, or a Prairie Meadows grant. Each funding source 
is accountable to a different but similar set of standards or 
guidelines. We have created consistency throughout our district early 
childhood classrooms by raising the standards of all our rooms to the 
highest level possible given differing levels of funding and 
requirements. Even though the funding and required standards from one 
classroom to another may be different, the academic expectations for 
every preschool classroom across the district are the same. With a high 
mobility rate, consistent expectations ensure quality.
    The Statewide Voluntary Preschool Program serves the majority of 
DMPS students. The grant requires a minimum of 10 hours of instruction 
per week. However, DMPS provides 13 hours per week at no additional 
charge to parents. Classrooms are located throughout the district in 
early childhood schools, comprehensive elementary buildings as well as 
partnerships with faith-based schools and private daycare settings. We 
offer a continuum of services including half-day free preschool 
programming, full-day programming for qualified families, and 
integrated special education services.
                    dmps early childhood classrooms
    According to Webster's dictionary quality is a degree of 
excellence. I am frequently asked, what makes our Des Moines Public 
Schools early childhood program excellent? In contemplating this 
question many things come to mind, but one answer far outweighs the 
rest, in fact, it is the key to all the rest. What makes our program 
excellent is our staff. We have outstanding certified teachers that 
lead each classroom and are supported in their work daily by our 
invaluable teacher associates. It is the awesome job of our certified 
teachers to bring all the components of our program together and carry 
out all of the program requirements in a way that is developmentally 
appropriate, meaningful, and fun for children. Without our high-quality 
certified staff leading the program I'm confident our students would 
not leave our classrooms as prepared for kindergarten as they are 
today. All early childhood teachers have, at minimum, a bachelor's 
degree with an endorsement in early childhood education. All classroom 
associates have child development certifications or other qualifying 
degrees.

          ``A growing body of evidence now points to the key role of 
        the educator in how much a young child learns. In fact, 
        according to research by Darling-Hammonds and associates, the 
        knowledge and skills of the teacher account for a greater 
        difference in academic achievement than any other single 
        factor.''

    In a Spring 2010 article in American Educator titled, ``The Promise 
of Preschool'' the co-directors of NIEER, the National Institute for 
Early Education Research, describe 10 research-based benchmarks for 
quality early childhood education. No. 1 on the list is that teachers 
should have a bachelor's degree and specialized training in preschool 
education. In addition they should receive the same salaries and 
benefits as other public school teachers.
    The professional development of teachers has also been shown to be 
highly correlated to the quality of early childhood programs and thus 
the overall effect of those programs in having a positive outcome for 
children. As our staff can attest our district and early childhood 
department have a strong commitment to ongoing quality professional 
development that keeps pace with current guidelines, research in the 
field, and resulting best practice. All early childhood staff receives 
professional development to enhance their skills in the delivery of 
instruction, progress monitoring, and making instructional 
accommodations to meet individual needs. The program professional 
development plan is based on individual staff needs as well as program 
evaluation and student data and is written and shared with staff. The 
following subjects are also included in annual professional 
development: ethics, policies & procedures, curriculum/instruction/
assessment, teaming, family engagement. Current professional 
development initiatives include Response to Intervention, Math 
Strategies, Curriculum Scaffolding and Differentiation, and Cognitive 
Complexity and a Rigorous Curriculum.
    We also offer instructional coaching support for classroom 
teachers. Coaching ensures effective implementation of required 
instructional strategies in all classrooms. Coaching services may 
include but are not limited to: classroom observations with feedback/
reflection, identification of coaching focus, collaborative planning, 
modeling instruction and discussion of available resources. The 
instructional coaches have all completed specialized training in 
coaching strategies.
    Beyond the classroom teacher, what are other components of a high-
quality program for young children?
    In these early years curriculum should be developmentally 
responsive and attend to children's social, emotional, and physical, as 
well as cognitive growth. All DMPS early childhood programs implement a 
planned, organized and consistently implemented curriculum supporting 
child development. The curriculum strategies are 
research-based, developmentally appropriate and include all domains of 
learning. The Pre-K curriculum used is aligned with the literacy 
curriculum used district-wide in our elementary schools. This 
consistency is a great support for our students as they transition from 
preschool to kindergarten.
    We also take seriously the research that self-regulation is a 
stronger predictor of elementary school success than IQ. This is good 
news because we can more easily effect self-regulation than we can IQ. 
Given this important finding many of our instructional strategies are 
designed to promote self-regulation as well as other early literacy and 
cognitive skills. Our instructional strategies allow children to 
develop abstract thinking, verbal and social skills along with self-
regulation. In our program, learning experiences actively build new 
knowledge on children's existing understandings, in part through 
purposeful play and exploration.
    In Des Moines Public Schools, 16.3 percent of students are English 
Language Learners. In fact over 80 different languages are spoken in 
DMPS classrooms. This is also the case in preschool. However, preschool 
students are not included in the ELL funding formula at the State level 
and students are not identified until kindergarten. In turn, as a 
department, we have addressed the need for ELL support by implementing 
a department-wide English Language Acquisition Plan. Professional 
development has been provided to the teaching staff in the 
implementation of culturally and linguistically appropriate 
instructional methods to support ELL students. Identified strategies 
are an expectation of all classrooms.
    In a quality program, appropriate assessment both formal and 
informal, should be ongoing and always inform instruction. In this 
aspect, as in all aspects of children's learning, strong connections 
and partnerships with children's families are vital. We provide 
developmental and social/emotional screening as well as comprehensive 
health screening for all children in the program. The screenings have a 
strong parent component and so begin the year by opening the 
conversation and beginning the partnership between the teacher and the 
family that will grow throughout the year. We also use a comprehensive 
assessment tool to assess children's progress across all domains of 
learning. The tool also helps guide the teaching staff in planning for 
developmentally appropriate next steps to scaffold each child's 
learning. Differentiation of instruction occurs as a result of analysis 
of formative/summative data which directs instruction. Gender, culture, 
language, ethnicity, family composition and parent input are all areas 
of respected individualization.
    In addition to analyzing data at the classroom level, data is also 
analyzed at the district level to ensure our preschools students are 
ready for kindergarten. A comparison was completed between children who 
attended a 2011/2012 DMPS preschool program with children who did not 
attend preschool and their progress on fall and spring district-wide 
kindergarten assessment during the 2012-13 school year. Although all 
children who attended DMPS preschool outscored their non-preschool 
peers, of special interest was a comparison of the 73 percent of 
children who were eligible for Free/Reduced Price Lunch. The results 
indicate that children eligible for Free/Reduced Priced Lunch 
academically benefited from attending a DMPS preschool program. Their 
academic advantage was not only evident on the fall kindergarten 
assessments but continued into the spring on the kindergarten 
standards-based math and reading assessments. On the math assessment, 
80 percent of the DMPS preschool children were proficient vs. 72 
percent of the children who did not attend preschool. On the reading 
assessment, 86.4 percent of the DMPS preschool program children were 
proficient vs. 76.6 percent of the children who did not attend 
preschool.
                   family and community partnerships
    Family partnerships begin at the time of enrollment. Preschool 
enrollment is completed at one central location, The Des Moines Public 
Schools Enrollment Center. Centralizing the enrollment process has 
assisted families in determining the type of programming that will best 
meet their needs. A specialist in the area of preschool enrollment 
meets with families and takes into consideration full/part-day 
programming needs, income verification, and program location. 
Applications can be completed on-line or in person at the Enrollment 
Center if assistance is needed. A comprehensive recruitment plan has 
been established to provide information to families and increase 
awareness of our programs. Yard signs and flyers are used to advertise 
in the community as well as advertisements in the local papers and 
radio stations. Customized enrollment events have been held at local 
apartment complexes of high need. Recruitment materials are translated 
in many languages.
    Family partnerships continue with parents after enrollment to 
ensure the best possible preschool experience for the children and 
families we serve. Through strong relationships with parents and 
community partners we work together toward the goal of having all 
children ready for kindergarten. We support parents as they identify 
and work toward family goals, by providing resources and referrals to 
community resources, and providing families with educational 
opportunities. Multiple parent engagement opportunities help foster a 
positive home/school relationship and positive child outcomes. A 
variety of opportunities are available for parent and teacher 
engagement on a regular basis throughout the school year. Parents are 
welcome to visit at any time throughout the school day and are 
encouraged to participate as least weekly in classroom activities 
through a program called Parent and Child Together time. In addition, 
home visits and parent/teacher conferences are held throughout the 
school year to enhance the knowledge and understanding of both staff 
and parents of the educational and developmental progress and 
activities of children at home and in the classroom. Further family 
engagement activities include district-wide and regional family events, 
family lending libraries, monthly newsletters and transition to 
kindergarten support. Services to support families are provided by a 
comprehensive team of professionals including nurses, school social 
workers and home visiting case managers.
    The DMPS Early Childhood Program is actively involved in community 
planning to encourage strong communication, cooperation, and the 
sharing of information between partners to improve the delivery of 
services for students in the community. The DMPS Early Childhood 
Advisory committee meets monthly and includes community stakeholder 
representatives including Drake University Head Start, Early Childhood 
Iowa, United Way of Central Iowa, Statewide Voluntary Preschool 
Partners, the Area Education Agency as well as DMPS ELL, Health, and 
Assessment departments. In addition, the DMPS Early Childhood Program 
participates in community focus groups including the Urban Core, 
Preschool Advisory Committee, Project Launch, Iowa Department of 
Education Early Childhood Network, and the Urban Educator Network.
    Through the Statewide Voluntary Preschool Program grant, DMPS has 
also established partnerships with local faith-based schools and day 
care centers to provide preschool programming at their sites. All Iowa 
Quality Preschool Program Standards must be adhered to and program 
monitoring is provided by DMPS.
                     benefits of preschool in iowa
    There are approximately 2,000 days between birth and the first day 
of kindergarten. Research illustrates that the first 2,000 days of a 
child's life can have a profound and lifelong impact on physical and 
emotional well-being, readiness to learn and succeed, and the ability 
to become a productive employee and citizen. Research tells us that we 
need to start at the earliest age, birth to age 5. During this time 
children's brains develop 90 percent of their capacity, which lays the 
foundation for academic skills and behavior traits that will last a 
life time. Research also tells us that:

    <bullet> By age 3, children of low-income families know only half 
as many words as children of more advantaged families.
    <bullet> Children who do not get a good start can arrive in 
kindergarten already 18 months behind.
    <bullet> Children who aren't ready for kindergarten are half as 
likely to read proficiently by third grade.
    <bullet> Children who are not reading proficiently by third grade 
are four times as likely to drop out of high school.

    For all the above reasons, the State of Iowa has invested in early 
childhood education. The Statewide Voluntary Preschool Program is a 
part of the State's efforts to provide more opportunities for children 
to access quality preschool and enter kindergarten ready to learn. The 
SWVPP along with other State and federally funded preschool programs 
and community partners in Iowa--Head Start, Shared Visions, Early 
Childhood Iowa, and Early Childhood Special Education--make up Iowa's 
system for delivering preschool programming.
                           future priorities
    Is Iowa's system for delivering preschool programming enough? Is it 
a comprehensive system?
    Unfortunately, the answer is no. It is a good start but the SWVPP 
does not go far enough. The program offers a minimum of 10 hours per 
week of quality preschool instruction. And districts receive only half 
of the funding that is provided for K-12 students. In turn, funding 
does not go as far as needed and families have more needs than ever 
before.
Family Barriers to Enrollment
    <bullet> 10 hours a week of programming is not enough for families 
with parents that work or are full-time students. Wrap around (before 
and after) care is costly.
    <bullet> Transportation to and from preschool is not provided and 
many families do not have transportation. Preschool programs may not be 
within walking distance of the family residence.
    <bullet> The first-come, first-served universal access of the SWVPP 
does not give our low-income families any priority in enrollment.
    <bullet> In districts with a high ELL population, language can be a 
barrier to enrollment.

School District Challenges to Providing Preschool Programming
    <bullet> Funding for physical plant growth/building costs is not 
allowable. In Des Moines, we have created early learning centers where 
multiple classrooms are housed under one roof. Currently we have three 
such centers, soon to be four. The creation of early learning centers 
was essential to expanding preschool programming because additional 
space is not available in our comprehensive school buildings.
    <bullet> Food is not an allowable cost under the SWVPP grant. With 
70+ percent of students qualifying for free and reduced lunch, 
providing a daily snack is essential for learning.
    <bullet> Transportation to/from preschool is an allowable expense; 
however, it is a considerable expense and providing transportation 
would severely limit the number of preschool slots we could provide.
    <bullet> Securing interpretation and translation services (80+ 
languages in DMPS) to support families is expensive and services are 
limited. The early childhood department uses the district ELL services 
whenever possible; however, frequently we have to secure the services 
of private companies at a cost of $47 per hour.
    <bullet> A minimum of 10 hours is required by the SWVPP; however, 
DMPS provides 13 hours per week at no additional cost to the family. 
Charging fees for registration or additional hours are allowable 
expenses, but ones that our families would not be able to afford.
    <bullet> Funding is limited for administrative costs (5 percent) 
which do not cover expenses for program oversight, enrollment, and 
management.
    <bullet> Funding for social work, nursing and coaching support 
staff are allowable costs but such positions do not generate funds. 
Support positions are key to providing quality services.
    <bullet> 70.6 percent of DMPS families are eligible for Free/
Reduced Priced Lunch and only 27 percent of enrollment slots are 
designated for low-income children (non-SWVPP slots) 200 percent of 
poverty or below.
    <bullet> There are sufficient half-day slots for preschool 
students; however, it is difficult to fill all of them due to the 
barriers listed above.
    <bullet> In 2007-8 when the original grant was awarded to DMPS, we 
received .6 of the K-12 per pupil funding for each preschool student. 
In 2011-12, the amount of funding decreased from .6 to .5 of the K-12 
per pupil funding for each preschool student. Revenue decreased but 
expenditures of teacher salaries and benefits increased as they do each 
year.

    Even in view of the many barriers to providing exemplary preschool 
services to families, Des Moines Public Schools has successfully 
accomplished this most important mission of readying the children we 
serve for kindergarten. However, the fact remains that we are only 
serving approximately 50 percent of the students enrolled in a DMPS 
kindergarten program. We have done so by making preschool a priority 
and braiding funding whenever possible. We have also created marvelous 
partnerships throughout the community. These partners are also 
committed to providing early childhood services. Two examples 
illustrate these successful partnerships. We are able to provide 
families the services of school social workers using the Mental Health 
Consultation Model through funding from the United Way Women's 
Leadership Connection. We are also able to provide Case Management and 
Home Visiting services through the financial support of Polk County 
Early Childhood Iowa. Such partnerships are essential for us to be able 
to do our job of educating the whole child.
    With any new early learning legislation, consideration should be 
given to policies to improve access to and expand enrollment of at-risk 
children in full-day preschool programming. Doing so will provide our 
neediest children with expanded services in all areas of development. 
Additionally, funding for family and instructional support services has 
to be part of the equation. Preschool is not just about providing 
academic instruction. Although extremely important, it is just one 
piece of the puzzle. There is clear and quantitative documentation of 
the positive effect of high-quality preschool programs. Early education 
can truly endow children with the necessary foundation for future 
learning. Early childhood education programs can and do play a pivotal 
role in providing crucial learning experiences for children and their 
families. Extensive research firmly establishes that high-quality 
programs for young children have a long-term, positive effect on 
children's well-being and academic success.

    The Chairman. Thank you very much.
    Now we'll turn to Barbara Merrill, executive director of 
the Iowa Association for the Education of Young Children.
    Barb, welcome.

    STATEMENT OF BARBARA MERRILL, EXECUTIVE DIRECTOR, IOWA 
ASSOCIATION FOR THE EDUCATION OF YOUNG CHILDREN, DES MOINES, IA

    Ms. Merrill. Good morning, Senator Harkin. I am honored by 
this opportunity to be here with you today. All of us would 
like to acknowledge you and all of the work that you have done 
throughout your career in Washington and, in particular, for 
introducing the Strong Start legislation.
    I'm a new grandmother of two infants, and I watch my 
children and their spouses doing all the right things as they 
nurture their children's growth, health, and learning. And yet 
they also must depend on extended family, healthcare providers, 
child care providers, and many others to support them. Many 
hands and many hearts are helping my children raise my 
grandchildren.
    Many of Iowa's children do not have these circles of 
support immediately surrounding them, even if we all wished 
that they did. It's up to us to ensure that all children, 
beginning at birth, are given every opportunity to be healthy 
and successful. At Iowa AEYC, our mission is to serve and act 
on behalf of the early childhood education profession and the 
role played by high-quality, educated, and competent 
professionals in the lives of very young children.
    Research has shown us that the qualifications of the 
teacher and the interactions between those adults and the 
children in their care is one of the primary indicators of a 
high-quality preschool or child care experience for our 
youngest children. We must make sure that we have a high-
quality early education workforce.
    Do you know that the child care workforce is traditionally 
among the poorest paid workforces in our country? According to 
Iowa Workforce Development, only fast-food cooks, dishwashers, 
and store clerks make less per hour than child care center 
staff and family child care providers.
    Iowa's Center and Family Child Care Wage Study in 2010 
found these caregiving and teaching staff averages between 
$8.50 and $10.75 per hour, depending on their specific job 
role. The workforce is mostly women, many mothers, often single 
heads of households, more often women of color, earning well 
under the poverty level as they care for our most precious 
possessions, our children.
    We talk about three workforces impacted by early childhood 
education today: the parents and families who can work today 
because they have child care; the workforce of the future, 
today's children who benefit from high-quality early childhood 
education today; and today's early childhood educators who are 
working directly with children every day.
    In Iowa, we estimate that the child care workforce numbers 
over 20,000. Consider 20,000 taxpaying citizens earning mostly 
poverty level wages as they provide care and developmental 
learning opportunities with Iowa's young children, sometimes 
for 10 hours a day. Often, these teachers have to rely on one 
or more forms of public assistance just to support their own 
families. We estimate that 60 percent of this workforce do not 
hold a college degree in early childhood education or a closely 
related field.
    We cannot pass the cost of educating and increasing 
compensation for this workforce on to today's young families. 
Parents of children ages birth to 5 are at the beginning of 
their careers, often not taking home significant paychecks yet 
themselves. We must ensure that State and Federal child care 
assistance is adequate to allow programs to pay fair wages, and 
that programs such as Iowa's Quality Rating System require 
adequate wages and educated staff if they are to be considered 
quality programs.
    Our State struggles to make decisions on spending limited 
Federal funding, trying to balance the need for quality 
supports for the programs and the workforce with enough 
quantity of child care assistance to serve low-income working 
families. We need clear direction from the Federal Government 
to the States about the use of Federal funding to ensure both 
needs are met adequately.
    We also must support child care as we continue to support 
pre-K. Before first grade, many children spend 10,000 hours in 
a child care program. Children and families deserve 
comprehensive services within each program and should not be 
forced to piece together a 10-hour week preschool with child 
care wraparound at a different location and family, friend, and 
neighbor care filling in the gaps.
    We understand the importance of continuity of care for 
infants, toddlers, and young children. What is inappropriate is 
to expect young children to adjust to two, three, or even more 
early education environments every week when one comprehensive, 
full-time, well-supported program incorporating preschool and 
the family's need for child care is best for the child and the 
family.
    We want to see a requirement that all early childhood 
programs meet a quality standard and have educated, qualified 
teachers. We applaud that the Strong Start bill would make it 
possible to use funding to support the current workforce to 
earn a degree in early childhood education. I suggest you 
require the States to target funding this way, earmarking some 
of the money specifically for the purpose of workforce 
education and compensation.
    States should be required to use funding to improve child 
care provider compensation when this workforce earns their 
degrees and become highly effective teachers. As is occurring 
in New Jersey and North Carolina, we should consider supporting 
teachers who are currently in classrooms as they work toward 
earning their degrees, allowing programs meeting a quality 
standard to use pre-K funding, but then requiring enrollment in 
a degree program if the teacher does not have a degree and 
ensure that full compensation parity happens when degrees are 
completed.
    The T.E.A.C.H. Early Childhood program has been improving 
the education, compensation, and retention of the early 
childhood education workforce all across the country. Following 
a national model, State nonprofits in 24 States and the 
District of Columbia are licensed by Child Care Services 
Association North Carolina to deliver these scholarships that 
include a broad array of support, including a counselor; 
support for tuition, books, and transportation; and paid 
substitute time. Compensation initiatives are mandated in every 
model.
    Iowa has been a proud T.E.A.C.H. State for over 10 years. 
We have viewed our efforts as having multi-generational impact 
in three different ways. No. 1, we create a more knowledgeable 
and skilled teacher. We know that the young children in her 
classroom are getting better outcomes. Each year, a new group 
of children in these classrooms reap the benefits of a better 
educated, more effective teacher. We also know that parents are 
able to be more productive at work if they feel comfortable 
about their child's caregiver.
    The second way is by going to college, these teachers, 
often first-generation college students, raise their 
expectations for their own children. They now expect their own 
children to go to college. We hear stories of mothers and 
children doing their homework together.
    The third way is by earning degrees, these teachers realize 
upward career mobility, earning more money and having more 
professional opportunities in the field. This, in turn, 
benefits her family economically, moving some of these teachers 
and their children out of poverty.
    Every year across the country, T.E.A.C.H. Early Childhood 
reaches 20,000 recipients who complete over 100,000 college 
credits and have grade point averages well in excess of 3.0. 
Teachers complete 13 or 14 credit hours annually, on average, 
and continue to work full-time. Their annual earnings increase 
from 5 percent to 8 percent. They remain in the field, and with 
a field typical turnover of 40 percent, T.E.A.C.H. turnover is 
always less than 10 percent.
    This year, we began offering pilots in Iowa for a 
compensation supplement program called WAGE$. T.E.A.C.H. 
scholarships and Wage supplements help the early childhood 
workforce become better educated, compensated, and more 
consistent, as they strive to meet the higher standards 
associated with pre-K, Head Start, and Quality Rating Systems.
    While attending college, teachers' basic language and math 
literacy skills improve, as well as their knowledge of 
children's cognitive, social, emotional, and physical 
development. Targeting a direct investment to the current 
workforce means quality can be raised without burdening parents 
with additional costs.
    In Iowa, child care, family child care, preschool, Head 
Start, and family support teachers and administrators can 
access T.E.A.C.H. T.E.A.C.H. is funded by the Child Care 
Development Fund, by the MIECHV grant Federal funding, by 
United Way, and by State funding through Early Childhood Iowa. 
Our WAGE$ pilot is supported by United Way of Central Iowa's 
Women's Leadership Connection.
    We do not have funding for T.E.A.C.H. targeted for our 
statewide voluntary preschool program, although the demand from 
that sector is great, and we have many folks on that program 
who work in State pre-K. We buy local. Every Iowa-based college 
offering early childhood degree programs is eligible to accept 
T.E.A.C.H. tuition payments.
    To support the current workforce with appropriate higher 
ed, we talk about quality, accessibility, and affordability of 
college for child care providers. We must support the higher ed 
career pathway for this workforce as well.
    Is the quality of higher education meeting the demands of a 
future teaching workforce? Despite an ever-increasing online 
option, is appropriate and quality higher education available 
for all throughout rural Iowa? And for a workforce earning an 
average of $10 an hour, how do we keep it affordable? This 
workforce should not be taking out student loans if they won't 
be able to pay them off.
    Articulation continues to be a problem. Will the credits 
completed at a local community college be recognized when the 
child care teacher works to earn a bachelor's degree and an 
Iowa teaching license at a university? We call this earning 
credits with currency, and like training hours, college credits 
stay on one transcript forever. But they have to be recognized 
at the next level of one's education to be meaningful.
    Community college credits should be of high enough quality 
to be accepted to meet the requirements of the public 
universities. And all our publicly funded institutions must 
consider the needs of the adult learner as these students work 
to support their own families, spend time with their own 
children, work, and complete college credits.
    Low education, poor compensation, and high turnover are 
national child care workforce issues. It's time to address them 
on a national level. Tomorrow's workforce, our most precious 
resource, our children, are depending on us.
    [The prepared statement of Ms. Merrill follows:]
                 Prepared Statement of Barbara Merrill
                                summary
    Research has shown us that the qualifications of the teacher, and 
the interactions between those adults and the children in their care, 
is one of the primary indicators of a high quality preschool or child 
care environment and experience for our youngest children. We must make 
sure that we have a high quality early childhood workforce.
    Three workforces are impacted by early childhood education: The 
parents and families who can work TODAY because they have child care; 
the workforce of the future, today's children who benefit from high 
quality early childhood education; and today's early childhood 
educators, working directly with children every day.
    The quality of early care and education is directly linked to 
teacher education and compensation. We cannot pass the costs of 
educating and increasing compensation for this workforce on to today's 
young families. Parents of children ages birth to 5 are at the 
beginning of their careers, often not taking home significant paychecks 
themselves. We must ensure that State and Federal Child Care Assistance 
is adequate to pay fair wages, and that programs such as Quality Rating 
Systems require adequate wages and educated staff if they are to be 
considered quality programs.
    To support the current workforce with appropriate higher education, 
we talk about the quality, accessibility and affordability of college 
for our child care providers. We must support the higher education 
career pathways for this workforce as well.
    T.E.A.C.H. Early Childhood is a national model and has been on 
improving the education, compensation and retention of the early care 
and education workforce--child care, PreK, and family support--across 
the country for nearly 25 years. When we target the direct investment 
to the current workforce we will raise quality without burdening 
parents with additional costs. When we improve the quality of the 
workforce, we can improve the quality of the programs, so that these 
community-based child care programs can be appropriate sites for birth 
through age 5 comprehensive early education experiences for all of our 
children.
                                 ______
                                 
    Good afternoon Senator Harkin and other honorable guests. My name 
is Barbara Merrill and I am the executive director of the Iowa 
Association for the Education of Young Children, Iowa's State affiliate 
for NAEYC. I also manage the T.E.A.C.H. Early Childhood program for the 
State of Iowa, and work to support the Early Childhood Iowa 
comprehensive system building efforts for services for children ages 
birth to 5 and their families. I am honored with this opportunity to be 
here with you today. All of us would like to acknowledge the work of 
Senator Harkin throughout his career in Washington, and in particular 
for introducing the Strong Start legislation.
    As a new grandmother of two infants, I see my children and their 
spouses doing all the right things as they nurture their children's 
growth, health and learning. And yet, they also must depend on extended 
family, health care providers, child care teachers, and many others to 
support them: It takes a village to raise children. Many of Iowa's 
children do not have these circles of support immediately surrounding 
them, even if we all wish they did. It is up to us to ensure that all 
children, beginning at birth, are given every opportunity to be healthy 
and successful.
    At Iowa AEYC, our mission is to serve and act on behalf of the 
early childhood education profession, and the role played by high 
quality, educated and competent professionals in the lives of young 
children.
    Research has shown us that the qualifications of the teacher, and 
the interactions between those adults and the children in their care, 
is one of the primary indicators of a high-quality preschool or child 
care environment and experience for our youngest children. We must make 
sure that we have a high-quality early childhood workforce.
    Do you know that the child care workforce is traditionally among 
the poorest paid workforces in our country? According to Iowa Workforce 
Development, only fast food cooks, dishwashers, and store clerks make 
less per hour than child-care center staff and family child-care 
providers. Iowa's Center and Family Child Care Wage Study, in 2010, 
found these caregiving and teaching staff average between $8.50-$10.75 
per hour, depending on their specific job role. This workforce is 
mostly women, many mothers, often single heads of household, more often 
women of color--earning well under the poverty level as they care for 
our most precious possessions, our children.
    We talk about three workforces impacted by early childhood 
education: The parents and families who can work TODAY because they 
have child care; the workforce of the future, today's children who 
benefit from high quality early childhood education; and today's early 
childhood educators, working directly with children every day. In Iowa, 
we estimate the child care workforce to number over 20,000. Consider 
20,000 tax-paying citizens earning mostly poverty-level wages providing 
care and developmental learning opportunities with Iowa's young 
children, sometimes for 10 hours a day. We estimate 40 percent of this 
workforce do not hold a college degree in early childhood education or 
a closely related field.
    We cannot pass the costs of educating and increasing compensation 
for this workforce on to today's young families. Parents of children 
ages birth to 5 are at the beginning of their careers, often not taking 
home significant paychecks themselves. We must ensure that State and 
Federal Child Care Assistance is adequate to pay fair wages, and that 
programs such as Quality Rating Systems require adequate wages and 
educated staff if they are to be considered quality programs.
    Our State struggles to make decisions on spending limited Federal 
funding, trying to balance the need for quality supports for the 
programs and the workforce with enough quantity of child care 
assistance for low-income working families. We need clear direction 
with any Federal funding, to ensure both needs are met adequately.
    We also must support child care as we continue to support Pre-K. 
Before first grade, many children spend 10,000 hours in a child care 
program. Children and families deserve comprehensive services within 
each program, and should not be forced to piece together a 10-hour a 
week preschool with child care wrap around at a different location, and 
family, friend and neighbor care filling in the gaps. We understand the 
importance of continuity of care, for infants, toddlers, and young 
children. What is inappropriate is to expect young children to adjust 
to two, three or even more early education environments each week, when 
one comprehensive, full-time, well-supported program, incorporating 
preschool and the family's need for child care, would be preferred. We 
want to see a requirement that ALL early childhood programs meet 
quality standards and have educated, qualified teachers.
    We applaud that the Strong Start bill would make it possible to use 
the funding to support the current workforce to earn a degree in early 
childhood education. I suggest you require the States to target the 
funding this way, earmarking some of the money specifically for the 
purpose of workforce education and compensation. States should be 
required to use some of the funding to improve child care provider 
compensation as this workforce earn their degrees and become highly 
effective teachers. As occurred in New Jersey, we should consider 
supporting these teachers as they work toward earning their degrees, 
allowing programs meeting a quality standard to use the PreK funding, 
but requiring enrollment in a degree program, and ensuring full 
compensation parity when degrees are completed.
    T.E.A.C.H. Early Childhood has been on improving the education, 
compensation and retention of the early care and education workforce 
across the country. Following a national model, State nonprofits in 24 
States and the District of Columbia are licensed by Child Care Services 
Association, North Carolina, to deliver these scholarships that include 
a broad array of support including a counselor, support for tuition, 
books and transportation, and paid release time. Compensation 
incentives are a mandated part of every model. Iowa is a proud 
T.E.A.C.H. State, for over 10 years. We are provided with support from 
CCSA to insure model fidelity, accountability, uniform data collection 
and integrity, ongoing technical assistance and strategy development.
    We have viewed our efforts as having multi-generational impact, in 
three ways:

    1. By creating a more knowledgeable and skilled teacher, we know 
that the young children in their classrooms are getting better 
outcomes. Each year a new group of children in these classrooms reap 
the benefit of a better-educated, more effective teacher. We also know 
parents are able to be more productive at work if they feel comfortable 
about their child's caregiver.
    2. By going to college, these teachers, often first generation 
college students, raise their expectations for their own children. They 
now expect their children to go to college. We hear stories of mothers 
and children doing their homework together.
    3. By earning degrees, these teachers realize upward career 
mobility, earning more money and having more professional opportunities 
in the field. This in turn benefits her family economically, moving 
some of these teachers and their children out of poverty.

    Each year, across the country, T.E.A.C.H. reaches nearly 20,000 
scholarship recipients. They complete well over 100,000 college credit 
hours, with grade point averages in excess of 3.0 at both the associate 
and bachelor level. Teachers on an Associate or Bachelor Degree 
scholarship complete an average of 13-14 credit hours annually, while 
working full-time. Their annual earnings increase from 5-8 percent. And 
they remain in their classrooms and in the field. In a field with 
typical annual turnover nearly 40 percent, our turnover is always less 
than 10 percent.
    This year, we've begun offering pilots in Iowa for a compensation 
supplement program called WAGE$. T.E.A.C.H. scholarships and wage 
supplements help the early childhood workforce become better educated, 
compensated and more consistent as it strives to meet the higher 
standards associated with pre-kindergarten, Head Start and Quality 
Rating Systems. While attending college, teachers' basic language and 
math literacy skills improve, as well as their knowledge of cognitive, 
social, emotional and physical development. And targeting the direct 
investment to the current workforce means that quality can be raised 
without burdening parents with additional costs.
    In Iowa, child care, family child care, preschool, Head Start, and 
family support teachers and administrators access T.E.A.C.H. 
scholarships. T.E.A.C.H. is funded by the Child Care Development Fund, 
by the MIECHV grant funding, by United Way, and by State funding 
through Early Childhood Iowa. Our WAGE$ pilot is supported by United 
Way of Central Iowa. We do not have funding especially targeted for our 
statewide voluntary preschool program, although the demand from that 
sector is great. We ``buy local'', with every Iowa-based college 
offering early childhood degree programs eligible to benefit from 
T.E.A.C.H. tuition payments.
    To support the current workforce with appropriate higher education, 
we talk about the quality, accessibility and affordability of college 
for our child care providers. We must support the higher education 
career pathways for this workforce as well. Is the quality of the 
higher education meeting the demands of the current and future teaching 
workforce? Despite the ever-increasing on-line options, is appropriate 
and quality higher education available to all throughout rural Iowa? 
And for our workforce earning an average of $10 per hour, how do we 
keep it affordable for all, without requiring this workforce to take 
out student loans that might be difficult to pay off?
    Articulation continues to be a problem. Will the credits completed 
at a local community college be recognized when the child care teacher 
works to earn a bachelor's degree and Iowa teaching license at a 
university? We call this earning credits with currency: unlike just 
training hours, college credits stay on one's transcript forever. But 
they have to be recognized at the next level of one's education to be 
meaningful. Community college credits should be of high enough quality 
to be accepted to meet requirements at the public universities. And all 
of our publicly funded institutions must consider the needs of the 
adult learner as these students work, support and nurture their own 
families, and earn college credits.
    Low education, poor compensation and high turnover are national 
workforce issues. It is time to address them on a national level. 
Tomorrow's workforce, and our most precious resource, depends on it.

    The Chairman. Thank you very much, Barb.
    And now we'll turn to Christi Regan, director of Head Start 
for HACAP, Hawkeye Area Community Action Agency over in Cedar 
Rapids.

 STATEMENT OF CHRISTI REGAN, HEAD START DIRECTOR, HAWKEYE AREA 
          COMMUNITY ACTION PROGRAM, INC., HIAWATHA, IA

    Ms. Regan. Good morning, Senator Harkin. Thank you for your 
work, dedication, and commitment to young children birth to age 
5 and their families in Iowa. Thank you also for this 
opportunity to discuss with you and other leaders in early 
childhood how to increase and improve the programming and 
services provided to young children in Iowa.
    Head Start's approach to school readiness means that 
children are ready for school, families are ready to support 
their children's learning, and schools are ready for children. 
Assessment data from the 2013 Iowa Head Start Association 
Annual Report shows that close to 90 percent of 4-year-old Iowa 
Head Start children were proficient in the domains of language, 
literacy, and cognitive development prior to kindergarten.
    Our country's top economists and researchers acknowledge 
that investments in high-quality early childhood development 
and learning programs, especially for low-income children, are 
the best education and economic investments we can make for the 
future of our Nation. By investing in early childhood and Early 
Head Start, you are investing in tomorrow's workforce.
    Strategies for improving early childhood include, No. 1, 
increase the availability of and investment in evidence-based 
programs and practices which includes Head Start, Early Head 
Start; support efforts to attract, educate, and retain high-
quality early childhood professionals; and, third, invest in 
Early Head Start services and programs to serve pregnant women 
and children birth to age 3.
    High-quality early education has been proven to lead to 
less abuse and neglect, better performance in school, fewer 
high school dropouts, and, ultimately, fewer crimes committed 
and a reduction in the number of prisoners. The path we set 
children on in their earliest years can make a difference as 
they proceed through school and beyond.
    We need efforts to support, educate, and retain high-
quality early childhood professionals. Research clearly shows 
the importance of teacher retention and education for the 
successful growth and development for young children and the 
role that compensation plays in quality care. Educated teachers 
who have earned a bachelor's degree tend to have more positive 
interactions with children, have a greater sensitivity to their 
needs, and provide a richer linguistic experience.
    If we want Iowa's children to be successful in becoming 
employable adults for the future workforce, we need to provide 
them a solid foundation from quality early childhood 
experiences with educated, high-quality early care and 
education providers. Expansion of Early Head Start will provide 
children and families access to high-quality early learning 
experiences that will support working families by providing a 
full-day, full-year program so that our vulnerable children 
have the healthy and enriching early experiences they need and 
parents have the opportunity to work and go to school to better 
their own lives and the lives of their families.
    Expanding Early Head Start will provide comprehensive 
services that benefit children, families, and communities. By 
doing this, we will be providing more health, developmental and 
behavioral screenings; have higher health, safety, and 
nutrition standards; and increase parent engagement 
opportunities.
    Collaborations and partnerships are crucial for the 
successful implementation of increasing high-quality early 
childhood programs. At Hawkeye Area Community Action Program, 
we have strong collaborations with both State and local 
stakeholders and depend on them to assist in our successful 
operations delivery. Partnering with schools and other high-
quality early childhood programs allows HACAP Head Start to 
serve as many children and families as possible in their own 
communities.
    Successful partnerships take time to develop and form 
lasting relationships. Achievement of the goals and objectives 
of collaborative agreements requires commitment from all levels 
and persons involved in the program. Head Start expects 
commitment from our partners to the Head Start goals and 
compliance with the Head Start Act and all policies, 
regulations, and guidelines.
    Head Start standards do not always align with our partners' 
policies and procedures. So together with our partners, they 
must be willing and able to invest in Head Start performance 
standards.
    Senator Harkin, as a strong supporter of Head Start, you 
recognize and value Head Start as our Nation's premier provider 
of developmental and educational services to pregnant women, 
infants, toddlers, preschoolers, and their families who live in 
poverty and struggle to meet the basic needs of life. I assure 
you and our Federal, State, and local leaders that Head Start/
Early Head Start will continue to play a key role in the 
transformation of education in America.
    We will bring our long record of success in working with 
the most challenging young children and their families to our 
partnership with those in education and family services. 
Together, Iowa Head Start Association and the 19 Head Start/
Early Head Start and migrant seasonal Head Start programs in 
Iowa will deliver on our Nation's promise that all of our young 
children and families have the opportunity to succeed.
    Thank you for your time and attention, Senator Harkin.
    [The prepared statement of Ms. Regan follows:]
                  Prepared Statement of Christi Regan
                                summary
    Senator Tom Harkin, thank you for your work, dedication and 
commitment to young children and their families in Iowa.
    Head Start is our Nation's premier provider of developmental and 
educational services to pregnant moms, infants, toddlers, preschoolers 
and their families, who live in poverty and struggle to meet the basic 
needs of life. Head Start will continue to play a key role in the 
transformation of education in America. We will bring our long record 
of success in working with the most challenging young children and 
their families to our partnerships with those in education and family 
services. Together we will deliver on our Nation's promise that all of 
our young children have the opportunity to succeed.
    Head Start is successful and is shown through performance and 
outcome measurements, staff professional qualifications, and 
initiatives that promote school readiness and parent family community 
engagement. Head Start is able to extend and serve families and 
communities through a variety of wraparound funding to provide full-
day, full-year services. Head Start has established and is continually 
growing partnerships with local child care centers and public school to 
reach as many age- and income-eligible children and families.
    The goals and priorities of Head Start and the Early Childhood 
field is to expand and provide more opportunities for infant/toddler 
care; funds to recruit and retain high quality childhood professionals 
with competitive compensation and investment in funding early childhood 
that provide comprehensive services to young children and their 
families. Healthy physical and social-emotional development is 
essential to success in school and life.
    Thank you for your time and continued work to promote and build 
upon early childhood in Iowa for success in home, school, work and 
life.
                                 ______
                                 
    Senator Harkin, thank you for your work, dedication and commitment 
to young children birth to age 5 and their families in Iowa. Thank you 
for this opportunity to discuss with you and other leaders in early 
childcare how to increase and improve the programming and services 
provided to the young children in Iowa. Iowa Head Start and early 
childcare partners are excited with the recent signing of the Omnibus 
Agreement and your work on Strong Start For America's Children Act that 
supports high quality early learning. The support and investment in 
Head Start Early Head Start and high quality early childhood 
programming, will restore sequestration reductions, provide more 
services for low-income children and invest in the future of young 
children.
    As a supporter of Head Start you recognize and value Head Start as 
our Nation's premier provider of developmental and educational services 
to pregnant women, infants, toddlers, preschoolers and their families, 
who live in poverty and struggle to meet the basic needs of life. Head 
Start will continue to play a key role in the transformation of 
education in America. We will bring our long record of success in 
working with the most challenging young children and their families to 
our partnerships with those in education and family services. Together 
Iowa Head Start will deliver on our Nation's promise that all of our 
young children have the opportunity to succeed.
    Decades of research show that a high quality pre-kindergarten 
program experience has lasting effects, particularly for our most at-
risk children. Together we must ensure that children birth to age 5 is 
provided accessible, intensive comprehensive services. Investing in 
Head Start, Early Head Start and early childhood programs expands on 
high quality early childhood programs.
    Head Start Early Head Start provides comprehensive child 
development services for children ages birth to age 5. Through strong 
collaborations with agencies at the local and State level, the Iowa 
Head Start Association and the Iowa Head Start Collaboration Office, we 
contribute to the common vision for Iowa that every child is healthy 
and successful. Our comprehensive services ensure that Iowa children 
are receiving services that include health, dental care, mental health 
and nutrition; preschool education; parent support services; services 
for children with disabilities; and child care.
    The mission of Iowa Head Start Association is to build the skills 
of its members to promote and advocate for a wide variety of quality 
services for all Iowa's children and families. Iowa Head Start 
Association supports, coordinates and develops Head Start communities 
across Iowa with the end goal of fulfilling the vision of a State in 
which all children have the opportunity to succeed. In Iowa, 14 Early 
Head Start, 18 Head Start and one Migrant and Seasonal Head Start 
grantee served 9,525 children and their families in the 2012-13 program 
year. Federal funding of about $56 million supported these programs.
    School readiness lies at the core of what Head Start is all about. 
Yet children who come from low-income families often start out behind 
their peers, a gap that occurs sometimes as young as 9 months of age. 
In the words of the Head Start Act of 2007, ``The purpose of Head Start 
is to promote the school readiness of low-income children by enhancing 
their cognitive, social and emotional development.'' According to the 
national Office of Head Start,

          ``The Head Start approach to School Readiness means that 
        children are ready for school, families are ready to support 
        their children's learning and schools are ready for children.''

    Office of Head Start regulations requires Head Start programs to 
create school readiness goals for all children in partnership with 
their parents. Assessment data shows that around 90 percent of 4-year-
old Iowa Head Start children were proficient in significant domains 
such as language, literacy, and cognitive development prior to 
kindergarten.
    In recent years, critics of Head Start have based their arguments 
on the Head Start Impact Study, which seemed to show a so-called fade 
out effect among Head Start students; that is, the gains made by 
children in Head Start disappear by third grade in relation to their 
non-Head Start peers. However, this is not the case in other legitimate 
and longitudinal measures which have shown sustained effects such as 
participating in special education, graduation rates, grade retention 
and overall academic success. And in a variety of measures, a 
consistent fade out effect was not found among subsets of the 
population (e.g., those who had 2 years of Head Start and those from 
higher risk backgrounds).
    Families are central to the purpose of Head Start. Services address 
the unique needs of each family as well as the needs of their children. 
Head Start works with families based on the Parent, Family and 
Community Engagement Framework in seven key outcome areas: family well-
being, parent-child relationships, families as lifelong educators, 
families as learners, families involved in transitions to kindergarten, 
families connected to peers and community, and families as advocates 
and leaders. Every family shares the goal that they want what is best 
for their children, a goal that Head Start shares and works to achieve. 
By supporting parents and families, Head Start impacts those most 
responsible for the health and successful development of a child; his 
or her family. Parents who engage with Head Start have access to 
services that can make them healthier, better educated, and more 
prepared for parenthood. Head Start forges these partnerships with 
parents so that their children may develop well and gain a good 
foundation for the rest of their lives.
    There are approximately 2,000 days between birth and the first day 
of kindergarten. Research proves that the first 2,000 days of a child's 
life can have a profound and lifelong impact on physical and emotional 
well-being, readiness to learn and succeed, and ability to become a 
productive employee and citizen. By investing in early childhood, you 
are investing in tomorrow's workforce. Business leaders report that 
many employees are not equipped with the skills and attitudes they need 
to be successful. Research tells us that the foundation for these 
skills begins in the first 2,000 days of life.
    Strategies for investing in the foundation of tomorrow's workforce 
include:

    A. Increase availability of, and investment in, evidence-based 
programs and practices.

          a.  Family support and home visitation.
          b.  Quality early learning programs for low-income and high-
        needs children.
          c.  Promote healthy physical and social/emotional 
        development.

    B. Support efforts to attract, educate and retain high-quality 
early childhood professionals.
    C. Invest in Early Head Start services and programs to serve 
pregnant women and children birth to age 3.

    Investing in high-quality early childhood education is the soundest 
step to support our young children. Strong Start for America's Children 
Act provides young children with the strong start they need to be 
successful in school and life. Our country's top economists and 
researchers acknowledge investments in high quality early childhood 
development and learning programs, especially for low-income children, 
are the best education and economic investment we can make for the 
future of our Nation.
    High quality early education has been proven to lead to less abuse 
and neglect, better performance in school, fewer high school drop-outs 
and ultimately, fewer crimes committed and a reduction in the number of 
prisoners. The path we set children on in their earliest years can make 
a difference as they proceed through school and beyond.
    Head Start employs high quality staff to serve the children and 
families with whom they work. Compensation, education and retention are 
the three most important factors in the quality of the early childhood 
workforce. Compensating teachers better increases morale and decreases 
turnover. Educated workers are better prepared and more skillful in all 
industries, early childhood included. And, having consistent teachers 
is beneficial to any child's development.
    We need efforts to support, attract, educate and retain high-
quality early childhood professionals. Research clearly shows the 
importance of teacher retention and education for the successful growth 
and development for young children and the role that compensation plays 
in quality care. Inadequate compensation has been shown to be a strong 
predictor of turnover. Educated teachers who have earned a bachelor's 
degree tend to have more positive interactions with children, have 
greater sensitivity to their needs and provide richer linguistic 
experiences. If we want Iowa's children to be successful in becoming 
employable adults for the future workforce, they need a solid 
foundation from quality early childhood experiences with educated, high 
quality early care and education providers. ``Substantial investments 
in training, recruiting, compensating and retaining a high quality 
workforce must be a top priority for society.'' The Center on the 
Developing Child at Harvard University.
    Early Head Start only serves about 4 percent of eligible children. 
Expansion of Early Head Start will provide children and families access 
to high-quality early learning experiences that support working 
families by providing a full-day, full-year program so that vulnerable 
children have the healthy and enriching early experiences they need and 
parents have the opportunity to work/go to school to better their own 
life and the life of their family.
    Expanding Early Head Start will provide comprehensive services that 
benefit children, families and communities by providing health, 
developmental and behavioral screenings; higher health, safety and 
nutrition standards; increased professional development opportunities 
for teachers and increased parent engagement opportunities.
    Collaborations and partnerships are crucial for the successful 
implementation of increasing high-quality early childhood programs. 
Head Start relies on a variety of partnerships to support our delivery 
system. At Hawkeye Area Community Action Program Head Start we have 
strong collaborations with State and local stakeholders and depend on 
them to assist in our successful operations delivery. Working together, 
we have a common goal to ensure the healthy growth and development of 
young children in the context of their families.
    State stakeholders provide wraparound funding that allows Head 
Start to provide full-day, full-year services for working/going to 
school parents and families. A collaborative and comprehensive 
partnership brings integration of an early care, health and education 
system in Iowa to improve the outcomes of young children. Shared 
Visions funding (Iowa Department Education) allows children to be 
enrolled in a full-day program and parents are able to work and/or go 
to school knowing their child is enrolled in a high-quality program. 
Iowa Department of Education is able to include essential data to 
measure growth and development of enrolled children in the State of 
Iowa. Program performance measures the success of a program and the 
activity and growth of the population served. By partnering with Head 
Start, the Iowa Department of Education is able to collect and report 
statewide indicator data to quantify and track progress toward 
statewide results.
    Local partnerships with public schools, early childhood programs 
and funding sources also provide wraparound services. Partnering with 
schools and other high-quality early childhood programs allows Head 
Start to serve as many age- and income-eligible children and families 
as possible in their communities. The partnerships allow Head Start to 
expand into rural communities where otherwise families would not be 
able to receive the services. Head Start children are served in the 
same classroom as the school or early childhood program's enrolled 
children. The local partner provides the teacher, space and supervision 
of the employees. Head Start provides health services and family 
services and financially supports the Head Start enrolled children. In 
many cases children are provided a full-day preschool classroom through 
the blending of Federal Head Start dollars and local dollars. More time 
at school and more time in appropriate instruction produce results 
reflecting developmental gains. Families and children are able to make 
smoother transitions from Head Start to public school. Together 
partners and Head Start are meeting the needs of children and families.
    Successful partnerships take time to develop and form lasting 
relationships. Achievement of the goals and objectives of collaborative 
agreements requires commitment from all levels and persons involved in 
the program. Policies, regulations and guidelines contribute to the 
effective and efficient process necessary goal attainment. Head Start 
expects commitment to the Head Start goals, and compliance with the 
Head Start Act and all policies and regulations, and guidelines of the 
Department of Health and Human Services/Administration for Children and 
Families. Head Start Standards do not always align with partner's 
policies and procedures, so our partners must be willing and able to 
invest in Head Start Performance Standards.
    Why do we need Head Start and other high-quality early childhood 
programs?

    A. Invest now, benefit later--high quality early childhood care, 
education and family services pay off in a myriad of benefits to 
children, their families and society as a whole.
    B. Comprehensive programs--research demonstrates that academic 
readiness and social/emotional development all affect a child's 
readiness for school.
    C. Research shows first years critical--research shows that 
children's experiences have a dramatic effect on how they approach life 
in later years.
    D. Patterns form early--brain research indicates that 90 percent of 
the brain develops by age 3, and concepts of compassion, conscience and 
personal responsibility are established by age 4.

    Without Head Start Early Head Start and other high-quality early 
childhood programs, low-income children would miss the opportunity to 
learn and grow in preschool and would be at a greater risk for academic 
and social difficulties later in life.
    Senator Harkin, thank you for your efforts and we look forward to 
working with you and our Federal leaders on the implementation of 
Strong Start for America's Children Act to improve early learning 
opportunities for children birth to age 5.

    The Chairman. Thank you very much, Christi, and for coming 
all the way over from Cedar Rapids.
    Gabriela Gallentine runs an interesting early education 
center that I've got to go see.
    Welcome and please proceed.

    STATEMENT OF GABRIELA GALLENTINE, DIRECTOR OF HISPANIC 
  EDUCATIONAL RESOURCES, CONMIGO EARLY EDUCATION CENTER, DES 
                           MOINES, IA

    Ms. Gallentine. Good morning, and thank you, Senator 
Harkin. Thank you for this opportunity, and I thank you for 
your work related to early childhood. I'm Gabriela Gallentine, 
the executive director of Hispanic Educational Resources and 
the director of Conmigo Early Education Center here in Des 
Moines, IA. I thank you for this opportunity to share my 
program with you and how we support children from low-income 
families to ensure kindergarten readiness.
    Our agency provides educational programming for children 
and families, with a tradition of serving the needs of the 
Latino community in the Des Moines area. Our primary program is 
focused on early learning, and it's called Conmigo Early Ed. We 
provide high-quality bilingual early childhood experiences for 
children ages 2 to 5. Our mission is to position children to 
thrive in school, community, and life.
    Our Conmigo program is a full-day program, which is 11 
hours a day Monday through Friday and a year-round program as 
well. We serve an average of about 120 families living in 15 
different zip codes in the Des Moines area. This program has 
been in existence for 18 years and is State licensed. 
Typically, about 89 percent of our families qualify for child 
care assistance through Iowa Department of Human Services, and 
88 percent of our students speak Spanish as the primary 
language in the home.
    Our efforts include parent involvement, as we do require 
parents to participate in conferences twice each year, parent 
meetings, family literacy events--all of these to learn the 
necessary skills to support their child's emerging literacy 
skills. Conmigo currently participates in Iowa's Quality Rating 
System and has reached the highest level of quality, earning 
five stars this year. Yet we will continue to seek ways to 
improve the service that we provide to these children.
    Our teachers are required to complete professional 
development training. Half of our teachers have completed 
either a CDA or have a bachelor's degree in early childhood. 
Funding from programs such as T.E.A.C.H. scholarships through 
IAEYC has helped our teachers meet those professional 
development goals. We also participate in the Child and Adult 
Care Food Program to offer quality, nutritious meals, with 
support also from Iowa State University Extension to provide 
access to nutrition education for our families.
    Our center is part of the United Way of Central Iowa 
Childhood Coalition and benefits from many supports from United 
Way of Central Iowa and Women's Leadership, in particular. Some 
of those supports include the ability to provide developmental 
screenings for all of our children enrolled, screenings such as 
lead, dental, and vision screenings. We're also able to provide 
consultations with developmental therapists from Orchard Place 
and Children's Therapy Services. We also are able to offer 
consultations and receive the services of a child care 
consultant from Visiting Nurses Services.
    The children in our center benefit from the use of a 
research-based Creative Curriculum in the classrooms, and we 
monitor and assess progress using Creative Curriculum's Gold 
Assessment. This is the same assessment piece that is used by 
Des Moines Public Schools. Conmigo also partners with Des 
Moines Public Schools to offer universal pre-Kindergarten at 
our center, and we share our student assessment data with Des 
Moines Public Schools and Early Childhood Iowa.
    Our program addresses the needs of dual language learners 
by collecting home language surveys when children are enrolled 
and providing all written materials for parents in both English 
and Spanish whenever possible. We provide vocabulary 
development in English and Spanish for students, allowing them 
to transition gradually to mostly English in the universal pre-
K classroom.
    Parents are provided with consultations as needed or 
determined by teachers as well as requested by the parent. 
Translation services are always provided if they are needed. 
Some children in our program require special language supports, 
which are provided onsite. In addition, we see some language 
needs specific to our program because of the difference in the 
language spoken in the home and the possible lack of English 
support for those students in their homes. These issues require 
specialized training for our teachers, and consistent 
attendance is a must for these students as well.
    Quality early childhood provides opportunities for the 
child to develop the necessary phonemic awareness to make sense 
of their second language. Phonemic awareness is an essential 
skill to connect sounds of words to written text. This is a 
prerequisite skill for reading. This is especially important 
for the population that we serve, because most of our 
children--like I said, better than 70 percent--do not have an 
English language model at home to provide support for them.
    The developmental screening that we provide for our 
children also helps us to determine if there are other issues 
that the child may be dealing with. There may be speech delays, 
fine or gross motor development delays. There may be behavioral 
or social-emotional delays that need to be addressed. The child 
may have had an adverse childhood experience, or the whole 
family may have been dealing with a traumatic event.
    In addition, the majority of these students come from low 
socio-economic backgrounds. As Senator Quirmbach indicated, 
many of these children have several disadvantages even before 
they start school. So a quality early learning program is 
essential for them, in particular.
    I'd like to talk to you a little bit about phonemic 
awareness and why that's important to children who are learning 
English. Phonemic awareness primes children in preparation for 
reading. This is particularly important for them, especially 
those children in our population at our center, because they 
don't have a model at home.
    These children also are not hearing the kind of language 
they need to develop those sounds or phonemes required in the 
English language. They're not developing the auditory skills to 
distinguish English sound fragments or patterns in words. These 
phonemes are not necessarily the same in Spanish or perhaps any 
other language. These phonemes are not inherently obvious, and 
these have to be taught.
    So when our children are coming to us in increasing numbers 
and do not have a background in English, do not have a model at 
home, their needs are particularly high for a quality early 
learning experience. Phonemic awareness is a strong indicator, 
a strong predictor of children who will experience early 
reading success.
    A quality early childhood program exposes children to 
phonemic awareness, music, rhymes, poems, and language patterns 
that they are going to need to make sense of their second 
language. Students have to grasp this concept before they can 
make the connection to written text or reading.
    Delivered introduction of vocabulary and speech and 
language services are critical for children at this age. 
Therefore, it is my recommendation to this committee that 
children of low socio-economic backgrounds or dual language 
learners have access to quality early childhood or preschool 
experiences that include these supports.
    Other issues that we see in my particular center are the 
matters of attendance and eligibility. Those are directly tied, 
because many of our families rely on support from Department of 
Human Services Child Care Assistance. The support that they 
receive is typically a 6-month contract, although we are seeing 
variations to those contracts, which may be anywhere between 3 
weeks to 6 months.
    At times, parents can see a gap in their coverage, and they 
are faced with a dilemma. Will they pay a full rate, a private 
pay rate, for their child to continue their education until 
their contract is renewed, or will they have to pull their 
child out because they're not able to pay that rate?
    We're seeing issues in attendance with children. Attendance 
is critical for these children that are learning English 
because they need to build on those skills on a day-to-day 
basis. I implore you, please consider funding for child care 
assistance that takes into account the needs of the child.
    A year-long contract would be most beneficial for a child 
and, obviously, for the families, because it's a challenge for 
them in many ways when they see those gaps. For us, being able 
to provide services throughout the day, an 11-hour program is 
essentially very useful for them.
    Being able to provide those supports for their children, 
whether it's speech therapy, occupational therapy, or having a 
consultant from Children's Therapy Services come in to work 
with their child onsite, is very important and very beneficial 
for these families because they're not able to take the time 
off work to go pick up the child, take them to therapy, take 
them back to the center, back to work--that's quite a dilemma 
for a family to face. And very often, they have to forego those 
benefits for their child.
    We are fortunate to be able to offer that onsite. And I 
highly recommend that you please consider that as a necessary 
component for high-quality programs.
    I invite you and any other members from the committee, as 
well as any of our distinguished guests, to visit Conmigo Early 
Ed. I also invite you, Senator, if you would like, to use our 
center as a venue for making announcements or getting in touch 
and communicating with the Latino community. I'd be happy to 
welcome you there.
    [The prepared statement of Ms. Gallentine follows:]
               Prepared Statement of Gabriela Gallentine
                                summary
    Good afternoon Chairman Harkin, Ranking Member Alexander, and 
members of the committee. I am Gabriela Gallentine, executive director 
of Hispanic Educational Resources and director of Conmigo Early 
Education Center in Des Moines, IA. I thank you for the opportunity to 
share my program with you and how we support children and families from 
low-income to moderate-income to ensure kindergarten readiness.
    Our agency provides educational programming for children and 
families with a tradition of serving the needs of the Latino Community 
in the Des Moines area. Our primary program is focused on early 
learning and is called Conmigo Early Education Center where we provide 
a high quality, bilingual early childhood learning experience for 
children ages 2-5. Our mission: We are a premier Latino early childhood 
learning center specializing in bilingual, culturally affirming 
educational programming and experiences for children and families. We 
position children to thrive in school, community, and life. Our Conmigo 
program is a full-day program open to the public regardless of primary 
language and we serve 120 families living in 15 different zip codes in 
the Des Moines area per year. This program has been in existence for 18 
years and is a State-licensed child care center. Typically, 89 percent 
of our families qualify for Child Care Assistance funding through Iowa 
Department of Human Services, 88 percent speak Spanish as the primary 
language in the home. Our efforts include parent involvement as we 
require parents to participate in conferences twice each year, parent 
meetings and Family Literacy Events to learn the skills that support 
their child's emerging literacy skills.
    Conmigo currently participates in Iowa's Quality Rating System and 
has reached the highest level of quality earning 5 stars this year yet 
we will continue to seek ways to improve the service we provide. Our 
teachers are required to complete professional development trainings 
and half of our teachers have completed either a CDA or have a 
bachelor's degree in early childhood. Funding from T.E.A.C.H. 
scholarships through IAEYC have helped our teachers meet professional 
development goals. We participate in the Child and Adult Care Food 
Program to offer quality, nutritious meals and with Iowa State 
University Extension to provide access to nutrition education for our 
families. Our center is part of the United Way of Central Iowa Early 
Childhood Coalition and benefits from many supports or comprehensive 
services for our children and families. Some of those supports include 
a developmental screening for every child enrolled, lead, dental, and 
vision screenings as well as consultations with developmental 
therapists from Orchard Place or Children's Therapy Services to address 
any possible behavioral or developmental delays. The children in our 
center benefit from the use of the research-based Creative Curriculum 
in the classrooms and we monitor and assess progress using Creative 
Curriculum's Gold Assessment. Conmigo also partners with Des Moines 
Public Schools to offer Universal Pre-Kindergarten at our center. We 
share our student assessment data with Des Moines Public Schools and 
Early Childhood Iowa.
    Our program addresses the needs of dual language learners by 
collecting a Home Language Survey when children are enrolled and 
providing all written materials for parents in both English and Spanish 
whenever possible. We provide vocabulary development in English and 
Spanish for students allowing them to transition gradually to mostly 
English in the UPK class. Parents are provided with consultations as 
needed or determined by the teacher or requested by the parent and 
translation services are always provided if needed. Some children in 
our program require special language supports which are provided 
onsite. In addition, we see language needs specific to our program 
because of the difference in the language spoken in the home and the 
possible lack of English support for our students in their homes. These 
issues require specialized training for our teachers and consistent 
attendance is a must for our students.
    Quality early childhood provides opportunities for the child to 
develop the necessary phonemic awareness to make sense of their 2d oral 
language. Phonemic awareness is an essential skill to connect sounds of 
words with written text. This is a pre-requisite skill for reading.
    Consistent attendance can be a challenge for some of our families 
because of changes in their Child Care Assistance funding or lapses in 
coverage. This can be problematic for a child's progress in 
kindergarten readiness when their family cannot ensure regular 
attendance. Providing parents with access to quality early childhood 
programs and funding support that takes into consideration the learning 
needs of young children is a great need in our community and State.
    In conclusion, I would like to encourage members of this committee 
to continue to seek out alternatives to address the learning needs of 
our youngest and most vulnerable population. The investment and efforts 
we make in early childhood have long-term implications. I have had the 
pleasure of meeting several ``graduates'' of our agency's early 
childhood program and I am pleased to hear the stories from their 
parents of how well their child performed in school following their 
experience in our preschool and gave me details about their high grades 
or scholarships to Iowa's colleges or universities. These are the kinds 
of success stories that we foster in a quality early childhood setting.
    Thank you all for your efforts on behalf of Iowa's children and all 
children in this country. Thank you for the opportunity to speak with 
you today.
                                 ______
                                 
    Good afternoon Chairman Harkin, Ranking Member Alexander, and 
members of the committee. I am Gabriela Gallentine, executive director 
of Hispanic Educational Resources and director of Conmigo Early 
Education Center in Des Moines, IA. I thank you for the opportunity to 
share my program with you and how we support children and families from 
low-income to moderate-income to ensure kindergarten readiness.
                        her & conmigo background
    Hispanic Educational Resources, Inc. (HER) is a well-respected, 
non-profit leader in bi-lingual education providing resources and 
educational programming that encompasses the entire family unit. We 
strive to position Latino families for life-long success. HER is 
derived from the first nonprofit Latino community center in Des Moines 
originally named the United Mexican-American Community Center (UMACC). 
The UMAC Center was founded in 1983 by a small, dedicated group of 
Mexican-American families and community leaders. These founders worked 
steadily to build support even re-financing their homes to raise the 
funds to purchase the building on Scott Avenue. The goal of these 
founders was to create a community center that focused on the needs and 
interests specific to the Latino community and maintaining the culture 
and language of the Latino community. The UMAC Center achieved 501(c)3 
status late in 1983. In 1999 the center changed its name to Hispanic 
Educational Resources, Inc. (HER) in response to becoming a more 
diverse and inclusive community center representing several Latino 
cultures and languages. The governance of HER is provided by a 
volunteer board of directors representing a variety of sectors of the 
Hispanic and non-Hispanic community.
                              her programs
    Our programming includes Conmigo Early Education Center, a child 
care/preschool, the Summer Enrichment Program (SEP) for school-age 
children, adult literacy classes offered in the Plaza Comunitaria, and 
Family Development through Family Literacy Events, informational 
workshops or classes for parents as well as community outreach and case 
management. The services are available to anyone in the Des Moines 
community to fulfill our agency's mission:
Empowering Our Community Through Quality Education and Advocacy
    HER also serves as a community resource by hosting the Mexican 
Consulate and informational meetings open to the general public 
(example topics have included: Immigrants' Rights, Gambling Abatement 
Resources, Lions Club Membership and Benefits, and Conversational 
English for adults). HER has also partnered with Visiting Nurses 
Services to provide H1N1 Vaccine Clinics and Child Safety Seat 
Installation, Iowa State University to provide a Health and Nutrition 
classes for adults as well as United Healthcare for an informational 
meeting for seniors regarding Medicare Options. HER and Conmigo also 
participate in two community events throughout the year by providing 
children's activities for the Des Moines Arts Festival in June and the 
Latino Heritage Festival in September. HER also serves as a host site 
for the Metro Arts Alliance Jazz in July Series providing a family 
friendly festival-type event including live music, cultural dance 
groups, ethnic food vendors and children's activities supervised by our 
skilled teachers.
    conmigo program history: (formerly xochipilli children's center)
    Conmigo Early Education Center is an early childhood learning 
center specializing in bilingual, culturally affirming educational 
programming and experiences for children and families. In 1995, 
Hispanic Educational Resources, Inc. received funding via the Community 
Development Block Grant to make necessary structural modifications that 
would accommodate the needs of our new center. A ``Community Needs 
Assessment'' was completed and a strategic plan was constructed to make 
our center a reality. In October 1995 the Children's Center was opened 
by utilizing grant moneys from the Department of Education. Finally, in 
1997 the center was officially named ``Xochipilli''; a Mayan word 
meaning ``A garden where the children flourish.'' The center's name was 
officially changed to ``Conmigo Early Education Center'' on July 1, 
2011 as part of a business improvement grant from First Children's 
Finance that also provided the new signs visible on the property today. 
The word ``conmigo'' means ``with me'' in Spanish and was chosen 
because the term demonstrates the cultural approach of an inclusive 
family setting we offer. It was also chosen to represent the diverse 
population of children and families we serve.
    Our mission: We are a premier Latino early childhood learning 
center specializing in bilingual, culturally affirming educational 
programming and experiences for children and families. We position 
children to thrive in school, community, and life.
    Our Vision: Our vision is to be leaders in and for our community by 
promoting success through learning and achievement.
    Our Conmigo program is a full-day program open to the public 
regardless of primary language and we serve 140 families living in 15 
different zip codes in the Des Moines area per year. This program has 
been in existence for 18 years and is a state-licensed child care 
center.
    Conmigo currently participates in Iowa's Quality Rating System and 
has reached the highest level of quality earning 5 stars this year, yet 
we will continue to seek ways to improve the service we provide.
    Our teachers are required to complete professional development 
trainings and half of our teachers have completed either a Child 
Development Associate or have a bachelor's degree in early childhood. 
The rest of our teachers are making progress toward completion of the 
Child Development Associate credential. Funding from T.E.A.C.H. 
scholarships through IAEYC have been an incredible opportunity that has 
helped our teachers meet professional development goals.
    Our center is part of the United Way of Central Iowa Early 
Childhood Coalition and benefits from many supports or comprehensive 
services for our children and families. Some of those supports include 
a developmental screening for every child enrolled, lead, dental, and 
vision screenings as well as consultations with developmental 
therapists from Orchard Place or Children's Therapy Services to address 
any possible behavioral or developmental delays. The children in our 
center benefit from the use of the research-based Creative Curriculum 
in the classrooms and we monitor and assess progress using Creative 
Curriculum's Gold Assessment. Conmigo also partners with Des Moines 
Public Schools to offer universal pre-kindergarten at our center. We 
share our student assessment data with Des Moines Public Schools and 
Early Childhood Iowa. We participate in the Child and Adult Care Food 
Program to offer quality, nutritious meals and with Iowa State 
University Extension to provide access to nutrition education for our 
families.
    Our program addresses the needs of dual language learners by 
collecting a Home Language Survey when children are enrolled. We also 
provide all written materials for parents in both English and Spanish 
whenever possible. We provide vocabulary development in English and 
Spanish for students allowing them to transition gradually to mostly 
English in the UPK class. All our assessment of kindergarten readiness 
is completed in English. Our students also benefit from the United Way 
Book Buddy program where volunteers come in twice a week to read to our 
4- and 5-year-old students. Book Buddy volunteers are trained by Des 
Moines Public School specialists in reading readiness and the focus of 
the program is to develop those basic concepts about print. We collect 
pre-test and post-test data on our students to evaluate effectiveness 
and plan for further training each year. Parents are provided with 
consultations, as needed or determined by the teacher or requested by 
the parent, and translation services are always provided if needed. Our 
efforts include parent involvement as we require parents to participate 
in conferences twice each year, parent meetings and Family Literacy 
Events to learn the skills that support their child's emerging literacy 
skills.
                              demographics
    We serve an average of 120 children per year ages 2-5 and an 
additional 50 children ages 6-10.
    The average family income for our families is $20,000 per year.
    The average family size 4.6 and 92 percent of families being 2-
parent households.
    Eighty-three percent of our children served qualify for Free and 
Reduced Lunch Program and Child Care Assistance funding through the 
Iowa Department of Health and Human Services.
    Ninety-two percent White-Hispanic.
    Five percent White-Non-Hispanic.
    Three percent African-American.
    Eighty-eight percent speak Spanish as the primary language in the 
home.
    Ninety-six percent of the children were born in Iowa while four 
percent were born in other U.S. States.
               possible special needs of conmigo students
    Most students in our program are learning English as their second 
language, there may be speech delays, or delays in fine and gross motor 
development. There may be behavioral or social-emotional developmental 
delays. The child may have had an adverse childhood experience or the 
whole family may be dealing with a traumatic event. Finally, the 
majority of our students come from low socio-economic backgrounds.
    A developmental screening is completed for all children. Of those 
screened, 11 percent are referred for additional screening or 
evaluation. Approximately 9 percent of students will qualify for 
additional services like speech therapy, occupational therapy or 
behavior modification supports. Our students receive these services 
onsite. Not only is this convenient for parents but is extremely 
effective in addressing learning or developmental needs on a consistent 
basis. Students are able to progress rapidly through therapies and exit 
out parallel to their peers who did not receive such therapies. HER has 
a Family Development Coordinator who works with providers, family, and 
insurance to ensure children have access to those supports.
    The Conmigo director ensures a comprehensive, collaborative process 
is followed to identify, discuss and establish a plan of action for 
each child that includes teachers, parents, specialists and the Family 
Development Coordinator. Information and forms are provided in English 
and Spanish as much as possible for parents/guardians. Ongoing 
monitoring of progress and regular reports are provided to the parents 
to reinforce the need for them to remain actively involved in their 
child's education. Based on the results of our CC Gold Assessment data 
I highly recommend this approach as our data demonstrates that students 
are able to make substantial progress when those needs are addressed at 
the age of 2, 3 or 4.
                   why are these supports necessary?
    Phonemic awareness is essential to learning to speak English and to 
read English for our population of students. English Language Learners 
are disadvantaged because they may not have an English language model 
at home. At Conmigo, 70 percent of our students have little or no 
English support in their home. These children are not hearing the kind 
of language needed to develop the sounds/phonemes required in the 
English language. They are not developing the auditory skills to 
distinguish English sound fragments or patterns in words. Phonemes 
produced in English are not necessarily the same in Spanish. For 
example, the word ``brisa'' in Spanish: b-r-i-s-a is the word 
``breeze'' in English but the way the phoneme for ``r'' is not produced 
the same as b-r-ee-ze. Some phonemes in English do not exist in 
Spanish. For example, the word ``thing'' has the digraph/phoneme ``th'' 
at the beginning and the digraph/phoneme ``ng'' at the end. Neither of 
these exists in Spanish. In addition, the one to one correspondence of 
letters to sounds isn't necessarily consistent in English which 
presents a challenge to learners of English.
    A quality early childhood program exposes children to the phonemic 
awareness, music, rhymes, poems, and language patterns needed to make 
sense of their 2d oral language. Students have to grasp this concept 
before they can make the connection to written text or reading. 
Deliberate introduction of vocabulary and speech and language services 
are critical for young children learning English for all of these 
reasons. Therefore, it is my recommendation to this committee that 
children of low socio-economic background or dual language learners 
have access to a quality early childhood or preschool experience that 
includes these supports.
               access to quality child care and preschool
    All the services provided at HER and Conmigo are family-centered. 
We coordinate with other community service providers to help parents 
access supports. Child Care Assistance Funding is critical to families 
of low socio-economic background. Families need this funding to 
maintain a job and steady employment is a way of achieving financial 
stability for their families. The challenge for many families is the 
short-term contracts of funding provided for their children. Some 
families receive funding for small segments of time ranging from 2 
weeks to 6 months. Some parents have lost their funding because of the 
course of study they are involved in. One example was a parent who had 
to complete a field practicum to complete her nursing certificate. 
Because she was not employed during this time she was disqualified for 
assistance despite the fact that her practicum required her to work in 
a nursing setting full-time. Another example was a parent finishing his 
bachelor's degree in elementary education. His funding was canceled 
because he was not employed during his final term that he had to 
complete his student teaching. This issue contributes directly to the 
variation in our enrollment throughout the year as parents typically 
pull their child out of the center during those times that they do not 
have funding. This is not conducive to consistent development of the 
child's emerging literacy skills and can be very unsettling to a young 
child whose brain development and psyche are in need of consistency at 
this time in their lives. Children frequently demonstrate regressive 
behavior, separation anxiety and difficulty making appropriate choices. 
One child's stressful behavior potentially affects other children in 
the class as well. It is my recommendation to this committee that child 
care assistance be provided on an annual basis to take into 
consideration the learning needs of the child. Children in our program 
who maintain enrollment demonstrate more consistent rates of progress 
according to our CC Gold assessment data while those whose attendance 
is inconsistent may plateau for months at a time rendering the child 
at-risk for not meeting age-appropriate expectations or kindergarten 
readiness according to the evaluation tool.
                               conclusion
    In conclusion, I would like to encourage members of this committee 
to continue to seek out alternatives to address the learning needs of 
our youngest and most vulnerable population. The investment and efforts 
we make in early childhood have long-term implications. I have had the 
pleasure of meeting several ``graduates'' of our agency's early 
childhood program and I am pleased to hear the stories from their 
parents of how well their child performed in school following their 
experience in our preschool and gave me details about their high grades 
or scholarships to Iowa's colleges or universities. It was exciting to 
have met a young woman last October during a volunteer event for United 
Way and discovered that she graduated from our preschool. She recalled 
being a student at our center and recognized a photo of her teacher who 
is still teaching with us. She exclaimed ``Esta es mi escuelita!'' and 
translated immediately for the rest of the group ``This was my 
school!'' She also shared with me that she loved school from the moment 
she started school with us and had completed a bachelor's degree from 
Iowa State University. It was rewarding to meet a person whose life was 
an example of our mission: to position children to thrive in school, 
community and life. These are the kinds of success stories that we 
foster in a quality early childhood setting.
    I welcome you, Chairman Harkin, Ranking Member Alexander and 
members of the committee to visit Conmigo Early Education Center to 
witness our family-centered approach to building reading readiness in 
young children. I will gladly work with your staff to coordinate the 
visit. I welcome you as well Chairman Harkin to use HER as a venue to 
make any announcements or to connect to the Latino Community of central 
Iowa.
    Thank you all for your efforts on behalf of Iowa's children and all 
children in this country. Thank you for the opportunity to speak with 
you today.

    The Chairman. I'll take you up on it. Thank you very much, 
Gabriela.
    General Pierce, welcome. Tell us about Mission: Readiness.

  STATEMENT OF DOUGLAS M. PIERCE, BRIGADIER GENERAL, U.S. AIR 
        FORCE (RETIRED), MISSION: READINESS, NORWALK, IA

    General Pierce. Thank you, Senator Harkin. People may 
wonder what a retired Air Force General is doing at a hearing 
on early childhood education. But the reality is that how we 
prepare our youngest kids to learn and succeed in school has a 
profound impact on our military readiness.
    The alarming fact is that an estimated 75 percent of all 
young Americans between the ages of 17 and 24 cannot qualify 
for military service. People are shocked when they hear this, 
and they should be. It means that the vast majority of our 
young people are losing out on the opportunity to serve this 
country. It also means that our Nation could be in jeopardy 
when it comes to military readiness.
    We tend to think about our military today in terms of fast 
jets, powerful ships, smart weapons, and tanks. But the most 
powerful tool for our armed forces is still our people, our 
women and men in uniform. The more than 400 retired admirals 
and generals of the national security organization, Mission: 
Readiness, are focused on how to grow the pool of eligible 
recruits.
    There are three key barriers to enlistment that comprise 
this 75 percent figure. Our young adults are either unprepared 
academically because they lack a high school degree or can't 
pass the military's entrance exam, they are too overweight to 
handle the physical tasks that the military service demands, or 
they have a serious criminal record.
    What is especially startling is that many of those who do 
earn a high school diploma and try to join the military are 
both disappointed and surprised to learn that they do not have 
the literacy, math, and problem solving skills we require. 
These academic deficits have a direct impact on the Nation's 
military readiness. In Iowa, 12 percent of all high school 
students do not graduate on time, and 19 percent of those who 
do graduate and try to join the Army cannot score high enough 
on the military's exam for math, literacy, and problem solving 
to be able to enlist.
    Fortunately, we know from research that high-quality pre-K 
can improve student performance, boost graduation rates, deter 
youth from crime, and even help reduce obesity. Mission: 
Readiness has often cited two long-term studies to make our 
case for high-quality pre-K, the Chicago Child-Parent Centers 
program and the Perry Preschool Program in Michigan. But we are 
very excited about new research that shows that high-quality 
programs, like those in New Jersey, can successfully be brought 
to scale through State pre-K programs.
    The members of Mission: Readiness are in good company when 
it comes to recognizing the value of high-quality pre-K. 
Parents around the Nation try their best to make it available 
for their children. Educators around the Nation point to their 
own personal experiences with children who have benefited from 
it. Policymakers around the Nation from both sides of the aisle 
are making strong commitments to it. And a growing coalition of 
leaders from the military, law enforcement, business, and faith 
communities have joined those in support of high-quality pre-K.
    These moves come at a pivotal time for pre-K in America. 
Right now, more than half of our States serve 30 percent or 
fewer of their 4-year-olds. We need public investments from 
State and Federal sources to help families afford pre-K. States 
like Iowa have been shouldering that burden alone and making 
progress. But it's such an issue of national interest that it 
needs to be a State and Federal priority.
    Fortunately, help is at hand. The Strong Start for 
America's Children Act introduced by Senator Harkin would 
create and fund the State-Federal partnership that would enable 
States across the country to provide high-quality pre-K for 4-
year-olds from every low- and moderate-income family in the 
Nation.
    This legislation can help address all three of the major 
barriers to enlistment that the military faces. This 
legislation could put more children in Iowa on the path to high 
school graduation and the college and career opportunities that 
become available because of that, including the military if 
they so choose.
    It will reduce crime rates and the number of kids being 
convicted of felonies or serious misdemeanors, which are 
disqualification for military service. Senator Harkin's bill 
also puts an emphasis on pre-K programs, including nutrition 
services and education, physical activity, and obesity 
prevention programs. Getting our kids on the right path when it 
comes to their health and wellness will also ensure our 
potential recruits are physically fit to serve.
    Next fall, our recruiting class of 2028 either will or will 
not start a quality early education program. The decisions we 
make today have a profound impact on our ability to continue to 
staff an increasingly technological all-volunteer military down 
the road.
    That's why military leaders are standing beside 
policymakers who are acting in a bold and bipartisan manner to 
ensure that every child has a fair chance to succeed at 
whatever they choose in life. That's what this important 
preschool legislation will do, and our national security 
depends on it.
    Thank you, Senator Harkin.
    [The prepared statement of General Pierce follows:]
                Prepared Statement of Douglas M. Pierce
                                summary
    You may wonder what a retired Air Force general is doing at a 
hearing that is focused on early childhood education, but the reality 
is that how we prepare our youngest kids to learn and succeed in school 
has a profound impact on our military readiness.
    The alarming fact is that an estimated 75 percent of all young 
Americans between the ages of 17 and 24 cannot qualify for military 
service. This is primarily due to three key barriers to enlistment: our 
young adults are either unprepared academically--because they lack a 
high school degree or can't pass the military's entrance exam; they are 
too overweight to handle the physical tasks that military service 
demands; or they have a serious criminal record. This means that the 
vast majority of our young people are losing out on the opportunity to 
serve their country.
    It also means our Nation could be in jeopardy when it comes to 
military readiness. We tend to think about our military today in terms 
of fast jets, powerful ships, smart weapons and tanks, but the most 
powerful tool for our armed forces is still our people--our women and 
men in uniform. The more than 400 retired admirals and generals of the 
national security organization Mission: Readiness are focused on how to 
grow the pool of eligible recruits.
    Mission: Readiness has often cited two long-term studies to make 
our case for high quality pre-K--the Chicago Child-Parent Centers 
program and the Perry Preschool Program in Michigan. But, we are very 
excited about new research that shows that high quality programs, like 
those in New Jersey, can successfully be brought to scale through State 
pre-K programs.
    The members of Mission: Readiness are in good company when it comes 
to recognizing the value of high quality pre-K, as a growing coalition 
of leaders from law enforcement, business, and faith communities have 
expressed support for high quality pre-K. They join parents and 
educators from across the Nation, and policymakers from both sides of 
the aisle, in making strong commitments to early education.
    Next fall, our recruiting class of 2028 either will or will not 
start a quality early education program. The decisions we make today 
have a profound impact on our ability to continue to staff an 
increasingly technological, all-volunteer military down the road. 
That's why military leaders are standing beside policymakers who are 
acting in a bold and bipartisan manner to ensure that every child has a 
fair chance to succeed at whatever they choose in life. That's what 
this important pre-K legislation will do--and our national security 
depends on it.
    Thank you for the opportunity to speak here today.
                                 ______
                                 
    Mr. Chairman, Ranking Member, members of the committee, and Related 
Agencies: You may wonder what a retired Air Force general is doing at a 
hearing that is focused on early childhood education, but the reality 
is that how we prepare our youngest kids to learn and succeed in school 
has a profound impact on our military readiness.
    The alarming fact is that an estimated 75 percent of all young 
Americans between the ages of 17 and 24 cannot qualify for military 
service. People are shocked when they hear this--and they should be. It 
means that the vast majority of our young people are losing out on the 
opportunity to serve their country.
    It also means our Nation could be in jeopardy when it comes to 
military readiness. We tend to think about our military today in terms 
of fast jets, powerful ships, smart weapons and tanks, but the most 
powerful tool for our armed forces is still our people--our women and 
men in uniform. The more than 400 retired admirals and generals of the 
national security organization Mission: Readiness are focused on how to 
grow the pool of eligible recruits.
    There are three key barriers to enlistment that comprise that 75 
percent figure: Our young adults are either unprepared academically--
because they lack a high school degree or can't pass the military's 
entrance exam; they are too overweight to handle the physical tasks 
that military service demands; or they have a serious criminal record.
    What is especially startling is that many of those who do earn a 
high school diploma and try to join the military are both disappointed 
and surprised to learn that they do not have the literacy, math and 
problem solving skills we require. These academic deficits have a 
direct impact on the Nation's military readiness.
    In Iowa, 12 percent of all high school students do not graduate on 
time and 19 percent of those who do graduate and try to join the Army 
cannot score highly enough on the military's exam for math, literacy 
and problem solving to be able to enlist.
    Fortunately, we know from the research that high quality preschool 
can improve student performance, boost graduation rates, deter youth 
from crime, and even help reduce weight gain.
    Mission: Readiness has often cited two long-term studies to make 
our case for high quality pre-K.
    These studies--which focused on the Chicago Child-Parent Centers 
program and the Perry Preschool Program in Michigan--followed the 
participants for decades and found that the experience significantly 
boosted high school graduation and success in the workforce while 
reducing involvement in crime.
    But, we are very excited about new research that shows that high 
quality programs can successfully be brought to scale through State 
pre-K programs. This research also refutes the argument that the 
academic gains of pre-school are destined to ``fade-out'' as children 
move on through elementary school.
    In fact, by the 4th or 5th grade, those who attended high quality 
pre-K in New Jersey were three-quarters of an academic year ahead in 
math and two-thirds of an academic year ahead in literacy compared to 
those who did not attend.
    They were also 40 percent less likely to be held back in school and 
31 percent less likely to need special education services.
    Our research also documents outstanding results from other States, 
including Arkansas, Michigan, New Mexico, and West Virginia. These 
results ranged from gains in literacy and math to reductions in the 
number of children who are held back in school, to reductions in the 
number who became involved in crime in later years.
    With all this in mind, it is easy to see why parents across the 
country want to get their children into high quality pre-school 
programs. Unfortunately for many, high quality pre-K is as out of reach 
as college tuition. Early learning programs that meet high-quality 
benchmarks costs an average of $9,000 per child, per year, depending on 
the State. That can be as much as in-State tuition at public 
universities, which is way beyond what many working families can afford 
for their preschoolers.
    Here in Iowa, our State pre-K programs served 52 percent of the 
State's 4-year-olds in 2012. Unlike most States, State per-child 
funding for preschool in Iowa increased slightly in 2011-12. We must 
continue this trend and increase the number of children served by high-
quality early education programs in Iowa.
    This is important not only for the children who need quality pre-
K--but also for the children who are already in quality pre-K programs.
    Why? Because elementary school teachers tell us time and again that 
all children in a classroom are affected when just a few children in 
that classroom are not ready to learn when they start school. The 
behavioral problems and other issues they face affect the teacher's 
ability to give all children the attention they need.
    The members of Mission: Readiness are in good company when it comes 
to recognizing the value of high quality pre-K:

    Parents around the Nation try their best to make it available for 
their children.
    Educators around the Nation point to their own personal experiences 
with children who have benefited from it.
    Policymakers around the Nation--from both sides of the aisle--are 
making strong commitments to it.

    And a growing coalition of leaders from the military, law 
enforcement, business, and faith communities have joined those in 
support of high quality pre-K.
    These moves come at a pivotal time for pre-K in America. In 2012, 
more than half of our States serve 30 percent or fewer of their 4-year-
olds. Another 10 States have do not even have State pre-school 
programs.
    And while policymakers, educators and parents in many States would 
love to see quality pre-K offered to more children, virtually all face 
financial challenges that are making that very difficult.
    We need public investments, from State and Federal sources, to help 
families afford pre-K. States like Iowa have been shouldering that 
burden alone, and making progress, but it's such an issue of national 
interest that it needs to be a State and a Federal priority.
    Fortunately, help is at hand.
    The Strong Start for America's Children Act, introduced by Senator 
Tom Harkin, would create and fund a State-Federal partnership that 
would enable States across the country to provide high quality pre-K 
for 4-year-olds from every low- and moderate-income family in the 
Nation. It would also expand access to high-quality early development 
programs from birth through age 3.
    This legislation can help address all three of the major barriers 
to enlistment that the military faces. This legislation could put more 
children in Iowa on the path to high school graduation and the college 
and career opportunities that become available because of that--
including the military if they choose to serve.
    It will reduce crime rates and the number of kids being convicted 
of felonies or serious misdemeanors, which are a disqualification from 
military service.
    Senator Harkin's bill also puts an emphasis on pre-K programs 
including nutrition services and education, physical activity, and 
obesity prevention programs. Getting our kids on the right path when it 
comes to their health and wellness will also ensure our potential 
recruits are physically fit to serve.
    What's also important is the financial wisdom of this. Independent 
analysis of numerous research studies shows that quality early learning 
programs produce an average net benefit to society of $22,000 for every 
child served.
    Next fall, our recruiting class of 2028 either will or will not 
enroll in a quality early education program. The decisions we make 
today have a profound impact on our ability to continue to staff an 
increasingly technological, all-volunteer military down the road. 
That's why military leaders are standing beside policymakers who are 
acting in a bold and bipartisan manner to ensure that every child has a 
fair chance to succeed at whatever they choose in life. That's what 
this important pre-K legislation will do--and our national security 
depends on it.
    Thank you for the opportunity to speak here today.

    The Chairman. Thank you very much, General. And, again, 
thank you for your lifetime of service to our country and for 
continuing to be involved in this important aspect of our 
readiness as a nation in terms of educating our kids.
    Before I get into questions, I asked Mario Cardona, who 
does all of our staff work on this, to bring these two books 
along with me. I've been waving this book since 1992. It's 
called The Unfinished Agenda: A New Vision for Child 
Development and Education. It was put out by the Committee for 
Economic Development.
    This came out of a charge by then--before he left office--
President Reagan. He had brought together the business 
community to chart a new course for education in America. 
President Reagan wanted the business leaders of America to 
investigate and have hearings to come up with suggestions for 
what we need in education. He didn't want any of these college 
professors and stuff like that. He wanted hard-headed business 
people to tell us what we needed to do in education.
    So they put together this committee. It was headed by Jim 
Renier, who was the chairman and CEO of Honeywell. And when you 
look at the roster of the people that were on this committee, 
they were basically the CEOs of some of our largest 
corporations, Ciba-Geigy, Sun Company, Aetna, Con Ed, Tulane 
University, Northwestern Mutual Life, Smucker's Company, Arco 
Chemical--you get the idea.
    They met for 4 or 5 years. Finally, in 1991--it started in 
1985 and by 1991, they came out with this report. I was on this 
committee, but I was clear down at the end. I was also at the 
same time the chair of the Appropriations Subcommittee that 
funded the Department of Education.
    In 1991, Jim Renier made an appointment to see me. I didn't 
know who he was. I had forgotten all about this committee. So 
he brought me their findings, their book, and he wanted to meet 
me and talk to me about their findings. So here's this big, 
hard-headed business community, all these CEOs of the biggest 
corporations in America, and their basic finding was we've got 
to do more in early childhood education.
    That's what this whole book is about, and that's where I 
picked up the phrase that education begins at birth and the 
preparation for education begins before birth. That comes from 
here. That's the business community of America, 1991, telling 
us we've got to put more into early education.
    Well, the years go by, and we tried to do this and tried to 
do that and tried to focus more on early education. Three years 
ago, again, as chairman, I was invited down to the U.S. Chamber 
of Commerce for their rollout of their suggestions for what we 
need to do in education. Again, here's the business community 
of America 20 years later--this is the report from the U.S. 
Chamber of Commerce 20 years later, Why Business Should Support 
Early Childhood Education. Here's the business community 
telling us over a span of 20 years we've got to put more into 
early education.
    We hear from our State people, like Senator Quirmbach and 
others, saying that we've got to do more of that. And now we've 
got the military leaders of our country, admirals, generals, 
retired, telling us we've got to do more of this. What don't we 
get? Sometimes people say, ``Well, we don't know if our kids 
are learning well enough.'' Well, I'm not certain adults are 
learning well enough.
    You've got the data, and you've got the support out there, 
and yet we can't quite seem to move the ball forward in really 
getting comprehensive, universal preschool for all of our kids. 
As I said in my opening, Iowa has done pretty darn well. The 
access is good, but still when it's only 2 hours--now, you do 3 
hours or 13--you do 3 hours a day at Ames, I think, right?
    Senator Quirmbach. Twelve a week.
    The Chairman. Twelve a week. It's 12 a week rather than 10 
a week. And then someone else had 13.
    Ms. Guest. It's 13.
    The Chairman. You have 13. Well, let's start with you, 
Susie. You get the minimum of 10 hours under this program. How 
do you afford to do 13?
    Ms. Guest. The district supports that.
    The Chairman. The Des Moines Public School District?
    Ms. Guest. Des Moines Public Schools.
    The Chairman. The Des Moines Public School District 
supports that.
    Ms. Guest. Yes, so that cost doesn't go back to the 
parents.
    The Chairman. Christi, what about Cedar Rapids? What about 
that school district? What's it like there?
    Ms. Regan. In Cedar Rapids, the school district, there are 
about 12 to 15 hours a week.
    The Chairman. How much?
    Ms. Regan. Twelve to 15 hours a week.
    The Chairman. They're doing 12 to 15 in the school 
district.
    Ms. Regan. Yes. At HACAP Head Start, we offer anywhere from 
15 hours a week to 80 hours a week.
    The Chairman. Say that again. I didn't hear that.
    Ms. Regan. At HACAP Head Start, we provide services for a 
minimum of 15 hours, up to 80 hours a week.
    The Chairman. Fifteen to----
    Ms. Regan. Eighty.
    The Chairman. In preschool?
    Ms. Regan. Yes, through wraparound services.
    The Chairman. Oh, I see. But I'm talking just about the 
educational services for preschool--15 hours?
    Ms. Regan. Yes. That would be our part-day program.
    The Chairman. So this varies around the State, it seems 
like. So what should it be? Should the States set higher 
minimums? Rather than 10 hours a week, should it be more than 
10 hours a week? And then, of course, how do we pay for it? 
That's always a problem.
    One of the things we're trying to do in this legislation 
that some of you have talked about and General Pierce talked 
about--Strong Start--is to get more funds to go to States so 
you can have more than 10 hours, or 2 hours a day. I just 
noticed when I drove up here this morning to Mitchell all the 
parents coming here dropping their kids off. And I think you 
said they had staggered times here. But they're here for 3\1/2\ 
hours?
    Ms. Guest. Three hours and fifteen minutes.
    The Chairman. Three hours and fifteen minutes, and then 
someone has to come pick them up.
    Ms. Guest. Correct.
    The Chairman. What happens when you've got two parents that 
are working, which is probably the case? What happens?
    Ms. Guest. As I indicated in my testimony, that is probably 
one of the biggest barriers for our families, and I think what 
happens is that the kids don't come to school. They'll find in-
home daycare that may be quality daycare, but then it may not 
be, either. They come up with alternatives.
    The Chairman. Am I off on my thinking? Should we be 
thinking more of full-day preschool?
    Ms. Guest. Yes. And in your Strong Start, I know that you 
talked about matching funds for States that already provide 
part-day, that there would be matching funds from the Federal 
Government for the other part of that day. That would be a 
beautiful thing.
    The Chairman. Well, I got off a little bit, but I wanted to 
ask--oh, Susie Guest, you mentioned in your testimony--let me 
just find it, because I didn't understand it when I read it 
over the weekend. You said here, ``We also take seriously the 
research that self-
regulation is a stronger predictor of elementary school success 
than IQ.'' Explain that to me.
    Ms. Guest. Self-regulation is the ability of a child to be 
able to regulate their emotions. So when the teacher says, 
``It's time to clean up,'' they cleanup, or ``When walking in 
line, here are the rules.'' So it's really about following 
rules, and a child is able to control their impulses.
    The Chairman. So you say that's a better predictor of 
success than what their IQ may be.
    Ms. Guest. Yes. And when our kids have preschool, those are 
the types of skills--and in my testimony, I indicated that 
academics, yes, is a huge piece of the puzzle, but there are so 
many other pieces, such as self-regulation. If you talk with 
any kindergarten teacher, they'll be able to pick out which 
students have attended preschool, not only because of their 
academic skills, but also their ability to self-regulate their 
impulses. And we also have specific strategies that we use in 
our preschool classrooms to teach those self-regulation skills.
    The Chairman. There are two or three things I want to 
cover--transportation, facilities.
    Senator Quirmbach, I know you're doing a lot of work on 
this. I congratulate you for your leadership on this. But 
physical capacity can be an issue when expanded access. It's 
one of the things that we hear about from different areas of 
the country, about physical capacity.
    So the work that you're doing here in Iowa--if this measure 
that we're talking about here becomes law, what do we do to 
address the issue of facilities?
    Senator Quirmbach. Senator, that certainly is one of our 
concerns. We have language in the bill that loosens some of the 
restrictions on how the State money can be used, and, 
specifically, we indicate that it's acceptable to use that 
money for the rental of additional space. If the capacity issue 
is that they just don't have the classroom space, and building 
new school buildings or building additions is a longer term 
project, we make it clear that they can use some of that money 
for renting additional space.
    We also make it clear that they can use some of that money 
for transportation of students, and we broaden the amount of 
money that can be used for administrative--sort of a general 
catch-all. We kept hearing from districts that they couldn't 
use the money to pay for toilet paper and cleaning supplies and 
other things that are essential to running any kind of 
institution with children around. We wanted to make sure that 
we didn't restrict districts too much there.
    One thing that I would point out is when we initiated the 
program, our funding, which is based off of the State per pupil 
funding, we had started at 60 percent of the funding for a 
full-time student for the part-day program. When there was a 
change of administration 3 years ago, there was an attempt on 
some people's part to--on the Governor's part--let's be clear--
to cut it back to a voucher program that would be limited only 
to low-income students. In the Senate, we insisted that, no, it 
has to be universal, because, like I said, the data show that 
every group gains, everybody gains, so everybody should 
participate.
    But as sort of a compromise, we ratcheted down the funding 
level from 60 percent down to 50 percent. We talked with school 
superintendents before we did that, and there was some 
frowning, and they said, ``Well, OK. We think we can still make 
a go of it.'' But I'm not so sure that we shouldn't revisit 
that issue. I think it's a good idea to also visit the issue of 
whether we should provide more hours.
    The emphasis, though, in our current effort is to just get 
more kids in the door. We're at about 65 percent of 4-year-
olds. We'd like to get it up to about 85 percent of 4-year-
olds. But there are other issues that we can address down the 
line.
    The Chairman. If anybody wants to jump in on that, they can 
just jump in.
    Go ahead, Barb.
    Ms. Merrill. The other thing to think about is can we use 
our community-based child care partners as locations. Iowa has 
one of the highest percentages in the country of children where 
one or both parents are in the workforce, meaning if they only 
have one parent, it's the one parent. These children are being 
served in child care settings--many, many, many of our 4-year-
olds.
    How can we work together between our public schools and our 
child care settings to use the existing facilities that are out 
there, which would allow for much more consistent care for the 
children, where they might have preschool there in the morning, 
and then have the wraparound child care for the rest of the 
day, as in Gabi's center.
    The Chairman. This Mitchell school here--this is fantastic. 
It's great. And the one I saw up in Ames is great. I assume 
there are others around the State, too, now, and I guess there 
are some preschools that are comingled with elementary schools 
in different places, too.
    But, again, if we're going to do this, I just don't know 
how much it will cost and what we can do. I don't know what 
kind of facilities are available to take care of this. If we go 
from 65 percent to 85 percent of kids, you've got to have 
capacity. You've got to have some place for them to go.
    Ms. Guest. Des Moines Public Schools currently partners 
with three of our daycare settings, Conmigo being one of them, 
and Oakridge Child Care--Oakridge Academy, and then Capitol 
Park Child Care Center, where we do just that. We provide the 
universal pre-K funding, and they provide the teacher and 
follow all the Iowa Quality Preschool Program standards.
    The Chairman. Well, Gabriela, do you have capacity for more 
students?
    Ms. Gallentine. I could potentially fill another classroom. 
Yes, I do have room in my center. I could potentially provide 
another classroom.
    The Chairman. You have room to expand.
    Ms. Gallentine. I do.
    The Chairman. Christi, did you want to weigh in on this?
    Ms. Regan. No. I was going to say that I can speak on 
behalf of Head Start across the State, that many--all of us, 
actually, do rely on partnerships with either a local school 
district or another quality early childhood program to provide 
those Head Start services. By doing that, we are meeting the 
needs of the families in their own communities.
    If you look at some of our smaller, rural towns, to put in 
a classroom of 16 Head Start services, we're not going to be 
able to fill those classrooms. But if we partner with the 
school district or another childhood program that is already in 
that town, we can meet those needs of everybody so that those 
families can access those quality services and we can meet the 
families where they are. If they have older children, siblings, 
attending school, it's a one-stop place for that family.
    Maybe the child care center is located in their community. 
Head Start does a fantastic job of going into those 
neighborhoods and communities where we can serve those 
families, but we can't be everywhere all the time. So we do 
rely on those partnerships to provide those services.
    Then through Head Start funds--and as we talked about 
before coming in here, getting your mind around that whole 
wraparound of how can both these partners work together in 
providing those funds to provide a full-day experience, because 
education happens throughout that whole day. It happens as the 
parents are dropping off their children. It happens at meal 
time.
    Susan talked about the whole--just learning their self-
regulation and how those social-emotional skills--education is 
happening from the time they're dropped off until the time that 
they are picked up. So providing a 10-hour day of services is 
going to be the most beneficial for children.
    The Chairman. You raised some thoughts also about--what do 
you do in rural Iowa, small towns and communities? That's got 
to be a unique challenge there for transportation, especially. 
But so many of our small towns and communities--I can tell you, 
I know it very well--are kind of bedroom communities, and you 
have two-parent families, and they're both off to work. One 
goes one way and one goes the other way to a nearby larger 
community to do work, and they've got children.
    So, No. 1, they're looking for daycare. That's always a 
problem, good daycare. But then if you really want those 
children to be involved in early learning programs, it has to 
be partnered with the elementary schools some way for 
transportation. And then we need to partner with some entities 
for the wraparound services.
    If you've got two parents working, and they're working 20 
miles away, they can't come pick up the kid at noon or 2 
o'clock or 3 o'clock. So there's got to be some--I think you're 
right--the partnership aspect of this to provide the 
additional--we keep using that word, wraparound, but just 
supporting the child until the parents actually come home from 
work. That's what I call it.
    You're involved with the Community Action Agency. They do a 
great job in the State of Iowa. You're a Head Start recipient.
    Ms. Regan. Yes.
    The Chairman. Now, help me out in this thinking. In the 
District of Columbia, we have a blended Head Start model. 
That's just where the Capitol is. I've looked at that. They 
offer universal voluntary preschool. The district uses Head 
Start funding to supplement their per-pupil money. They offer 
high-quality preschool to almost all 4-year-olds and most 3-
year-olds. The classrooms meet Head Start standards. But 
they're a grantee, and they have a dedicated funding formula.
    Why couldn't a school district or a community action agency 
like HACAP do the same thing here? Can you do that same thing? 
Can you put that money together in that dedicated funding 
formula for kids?
    Ms. Regan. We do that already. Through our Head Start, we 
are utilizing wraparound funding with Shared Visions from the 
Department of Education. Early Childhood Iowa funds support our 
programs. United Way supports programs, and then also DHS 
wraparound services provide. Where we partner with schools and 
other local child care partners----
    The Chairman. So you can do that.
    Ms. Regan. Yes, we can do that.
    The Chairman. But a school district can't, can you?
    Ms. Guest. Yes.
    The Chairman. You can use Head Start money that way? You're 
not a--are you a Head Start grantee?
    Ms. Guest. We are a delegate. Drake University is the 
grantee.
    The Chairman. Oh, you get it from Drake.
    Ms. Guest. Yes, we get funding through Drake, so we're 
considered the delegate. We serve 424 Head Start students. And 
next year, we will be providing more full-day programming by 
braiding the funding where we'll have universal preschool half 
the day, and Head Start will extend that day to a full-day 
program.
    Ms. Regan. And many Head Start programs do that as well. In 
the case with HACAP, where we have children enrolled into a 
local school district, Head Start will provide a core program 
hours, and then that school district will supplement the 
remainder of that school day with voluntary preschool or Shared 
Visions funding. And then we just partner together to make sure 
that those services are provided. So it is a case of braided 
funding.
    The Chairman. Well, that's encouraging, because one of the 
things I said to you earlier before we started the hearing is 
that I've been involved in this a long time, and just when I 
think I understand it, then I figure out I don't understand all 
of the different funding streams and how that money comes in 
and crosses this and goes over here. It's just--it's almost 
like spaghetti--all these different funding things.
    One of the things I hope we're trying to do in our bill is 
to somehow streamline and simplify that some way, aside from 
raising quality and providing money. So I'd like any help you 
can give me on how your job would be made better, easier, more 
efficient by figuring out how we do these different funding 
streams.
    As I said before, and I'll say this openly, every time we 
start a program--I assume it's true on the State level, too, 
but it's true on the Federal level. We start something to meet 
a need. There's a distinct need in society, so we establish 
something. Then that goes on, and then we see a different need, 
and we provide something for that, and it goes on.
    Then what happens is pretty soon, you have all these 
different streets and roads out there that are trying to meet 
certain needs. And then at some point, you say, ``Wait a 
minute. Can't we put these together in some way to make it more 
efficient, less confusing?''
    Again, I'll just offer this up--and I would take any 
comments to the contrary--that if we had universal preschool 
for all children, and you didn't have to worry about how much 
money your family made or income status or anything like that, 
wouldn't that make it a lot easier?
    Ms. Regan. Oh, yes.
    The Chairman. I've been involved in school lunch and school 
breakfast programs in my service on the Agriculture Committee 
all these years. And we basically have shown in the past that 
rather than setting up all of these things for free and reduced 
price lunches and all the paperwork you have to go through--if 
somebody makes a little bit more in a month, then they have to 
go off it, and then they have to come back on it again. That 
costs a lot of money.
    If you just said for everybody there's free breakfast and 
lunches, it just doesn't cost that much more money, and it's 
just very streamlined. That's what I think about in terms of 
early childhood education. Why don't we just kind of start 
biting the bullet and saying, ``Look, what is so magic about 
the age of 5 and kindergarten?'' That was started some time 
ago.
    But that's when one parent worked and one parent was home. 
It was different times. As nostalgic as we may be--and we might 
wish we had that--times have changed. So what's so magic about 
that? I mean, why is it that we just think of--well, kids at 
the earliest possible time--90 percent of your brain 
development is before you're age 5.
    So why aren't we thinking about kids starting school when 
they're born? It seems to me we could knock off a lot of the 
confusion, and I think perhaps even some--I don't want to say 
wasteful spending, but inefficient spending by streamlining it 
that way. It might cost more money in the long run. I don't 
know. Probably so.
    But there's a lot of inefficient spending in education 
today. Need I mention the amount of money--taxpayers money, 
your money, my money--that's being siphoned off for the for-
profit schools in higher education, and how many billions of 
dollars every year go to hedge fund managers on Wall Street, 
and people making $20 million a year as the head of one of 
these? And yet the highest default rate among students who 
borrow money to go to college is in the for-profit school 
business.
    So it seems to me that maybe changing that around and 
taking some of that billions and billions of dollars and 
putting it into early childhood education might be money better 
spent in education in this country. Well, those are just my 
thoughts on that. But I guess I'm still looking for advice--
since we're not there yet--on universal preschool. What can we 
do to at least make the funding streams better, more logical 
perhaps, easier to access? I'm still looking for suggestions, 
not that you have to do it here, but if you have any thoughts 
on that that you want to convey to me or my committee, let me 
know.
    Senator Quirmbach. Senator, if I could, it is certainly a 
lot less headaches if we didn't have to sort through the 
paperwork and all of the form filling out and who is eligible 
and who is not eligible. We could save a lot of money there 
that would be better invested in educating the kids.
    The other benefit from universal access is that we get all 
these kids into the same room together, and before they get old 
enough to focus on differences, they learn that they have more 
in common. You saw that in that classroom, and you were 
wonderful with those kids on Saturday. You were just terrific.
    But you saw kids in Ames from all different kinds of 
backgrounds, different ethnicities, different income levels. 
They're all learning to play together. They all learn that they 
have much more in common than what they have separating them. 
That's at least as important as any paperwork saving.
    The Chairman. Well, I'm preaching to the choir here, but 
these kids are like sponges. I mean, they want to learn. You 
just see it in them. And I go to these little classrooms like I 
just did here, the one in Ames or others I've been to, and, 
boy, they're just anxious. And you get a good teacher, a good 
qualified teacher that's well trained, coached--boy, these 
kids--they just learn so fast. And to deny kids that 
opportunity when their brains are growing at this rapid rate--
it's just a shame.
    General, I think what you're saying is that we pay for it 
later on. If we don't pay for it now, we're paying later on.
    When I introduced my bill, the Strong Start bill--was it a 
month ago, 2 months ago--November. Well, time goes by. But one 
of the persons at the rollout of the bill was the sheriff of 
Hennepin County, Minnesota--Minneapolis, Twin Cities. I didn't 
know this individual. I think he was asked to come by the 
police organization or sheriff 's organization.
    I spoke, George Miller spoke, and different people spoke as 
we introduced our bill at a press conference. Then he was the 
last person to speak, and he said, ``Let me introduce myself. I 
am the guy you pay later.'' I thought that was very profound. 
He said, ``If you don't do this, I'm the guy you're paying 
later to lock them up, take them to the criminal justice 
system, juvenile court system.''
    I just thought that--sort of like you're saying. We should 
be doing this now rather than trying to pay the court system 
later on. And I think we have enough data. We have a lot of 
data, General, to show that if these kids are denied--the data 
shows that those that have good preschool are less likely to be 
involved in the juvenile justice system later on.
    General Pierce. I'll just add to what you're saying, 
Senator, and this has been over several years now. Our 
graduation rates from high school in the United States are--25 
percent of our students don't graduate from high school. That's 
across the Nation.
    The Chairman. Twenty-five percent.
    General Pierce. Iowa's doing great--well, a lot better. 
They're like 92 percent graduation. But if 25 percent of your 
students aren't graduating from high school, when 80 percent of 
your jobs in the next 10 years are going to require some 
education beyond high school, you won't have an employable kind 
of citizen, and they're not productive citizens for the United 
States of America.
    They're going to probably be minimum wage kind of folks. 
They're not qualifying for the military. They're not qualifying 
for what our business community needs in the United States. If 
you project that out year after year after year, that 25 
percent non-high school graduate rate, it becomes a real burden 
on society to generate the incomes which leads to the criminal 
record because they can't survive with that non-high school 
education. So my opinion is if you can fix education, we'll fix 
a lot of problems in the United States of America.
    The Chairman. There's been some data that they've rolled 
out about Head Start not being that effective because you get 
fade-out, that by third grade, all that support kind of fades 
out by then. One of you talked about that. Was that you? Who 
talked about the fade-out. Can you explain that at all, 
Christi, about this fade-out that people talk about?
    Ms. Regan. There have been some studies completed that are 
stating or showing that by the time a child that has been 
enrolled in Head Start reaches third grade, those benefits have 
already gone away. Now, as a Head Start community, we will say 
that's not accurate and that's not a true reflection of the 
population that we serve.
    We are serving families that are at or below 100 percent of 
the Federal poverty guideline. They are considered at-risk. 
They have a lot of barriers that are in front of them. For a 
lot of our families, it's a case of: How am I going to feed my 
family today? How am I going to get away from a partner who is 
assaulting me on a daily basis?
    So as we talk about with Head Start, we are providing those 
comprehensive services. Yes, we are concerned about the 
education of young children, but we also recognize that a child 
who is coming to school every day hungry is not ready to learn. 
A child who has not gone to the dentist and has a toothache is 
not ready to learn. A child who is not getting adequate sleep 
or nutrition on a daily level is not ready to learn. So we're 
working with that family very extensively to overcome those 
barriers.
    As I said, we pride ourselves on that whole comprehensive 
aspect. We're providing them with family support workers. We're 
providing them with the teachers. We're providing them with all 
those social services that we recognize. We can work to assist 
those families.
    Then, not to downgrade our public school systems, but when 
you come to the public school systems, there's not the family 
support workers. There's not all those services that are there. 
Some do, yes. But for the most part, it is a case of then--we 
all hear about having to reach those levels of skills for 
children. So I think sometimes that comprehensive aspect is 
taken away from the families.
    So through Head Start, we're really working on that family 
to become also that advocate--that they're asking those 
questions: How is my child learning? How is my child growing? 
So when they leave Head Start and go into the public school--
and not even when they're in kindergarten, but as they go 
through all of the school, those parents are actively involved 
in that child's life, because we know that an active, involved 
parent is going to result in a child who is going to be ready 
to succeed.
    The Chairman. Well, I see I'm running out of time. I'm 
going to open it up to the audience. All I would ask is that 
you identify yourself for the recorder who is recording this, 
and if your name is not Smith or Jones, maybe you should spell 
it out so she can get it right.
    Charlie Bruner.
    Dr. Bruner. Bruner, B-r-u-n-e-r. Thank you. We want to have 
effective services, Senator Harkin. But I think we also have to 
recognize for every dollar our society invests in school-age 
kids, in K-12 education, we invest about 25 cents in young 
children's education and development in the preschool years and 
7 cents in the birth-to-3 years.
    The brain development research and the early childhood 
adversity research in toxic stress says those first 3 years of 
life are just critical for cognitive development, social 
development, physical development, and emotional development. I 
really want to commend Strong Start for having the funding in 
for the early childhood partnerships and expanding Early Head 
Start, which is probably the premier program at the Federal 
level for dealing with the birth-to-3 population.
    We have to recognize that that serves 1 percent of kids 
today in the birth-to-3 years. And the half billion dollar 
expansion is really important and I think will add to that. 
Home visiting serves about half of 1 percent of kids. We really 
have to focus, yes, on universal preschool, but also on those 
birth-to-3 years and strengthening the families that are there.
    We're celebrating the 50th year anniversary of the War on 
Poverty. That's the right term. But between 1964 and 2014, 50 
years, we've reduced senior poverty by 70 percent. It was 30 
percent in 1964. It's less than 9 percent today. Child poverty 
has gone up from 18 percent to 20 percent.
    We may not be able to immediately reduce child poverty. But 
we have to give those kids a chance, a much better chance, for 
achieving the American Dream, and that does mean the Strong 
Start program. But it really also means: How can we strengthen 
and support these families in those first 3 years of life?
    One thing I would ask you to do--and I know you're already 
doing this--but I think that there's one area where we don't 
need congressional action. We already have the tools in the 
Federal administration, and that is with the Center for 
Medicare and Medicaid Innovation. They have funding available, 
and we've been promoting with the American Academy of 
Pediatrics and nurse practitioners and the whole contingent of 
Iowans for a Federal opportunity announcement specifically on 
young children and their healthy development and working to 
strengthen families in those birth-to-5 years.
    There's $5.5 billion left in their budget. The difficulty 
in securing that has been that, historically, CMMI has looked 
for returns on investment of 3 years. When you're talking about 
young kids, you need a longer timeframe.
    But I think that there's an opportunity for putting funding 
into a Federal opportunity announcement and gearing up people 
like Deb Waldron and Cheryl Jones and Rizwan Shah and Chris 
Atchison here in Iowa to really push for comprehensive 
approaches in terms of those first 3 years of life and the role 
of the child health practitioner. That child health 
practitioner universally sees those kids and has an opportunity 
to be that first responder.
    The Chairman. Charlie, let me ask you this. CMMI--I'm very 
familiar with it. You're right. They've got about $5 billion. 
They get funded every 10 years, and they get $10 billion. So 
this is 2014. They've gone through about half of the money, but 
some of it was siphoned off, and don't get me started on that.
    But are you saying--have you applied, or do you know--help 
me think. You have applied for some funding from CMMI to do 
some innovative type things on this birth-to-3?
    Dr. Bruner. We have encouraged and pushed for CMMI to 
create a Federal opportunity announcement like they've done in 
innovations for chronic health diseases, but this time focusing 
upon young children and a healthy start in life, and draw on 
evidence-based models, like Help Me Grow and Child First and 
Reach Out and Read, to really create that.
    We're not applying ourselves. They have to create, in 
effect, a grant program. And we've talked with Dr. Conway, 
Patrick Conway, who is the head of the CMMI. I think they're 
receptive about it. We think it fits in with your agenda and 
the President's agenda.
    The sticking point has been that kids are not cost drivers 
of the healthcare system. But they're ultimately cost 
solutions. If we get them on a healthy trajectory and reduce 
their early childhood adversity, we know that that's going to 
create gains. So we need a longer time horizon and a push 
around that. I think that the President and you and other 
Members of Congress could be very instrumental in promoting a 
half-billion-dollar Federal opportunity announcement around 
young kids through CMMI.
    The Chairman. I just asked Mario to followup on this. Have 
you talked to Adrienne Hallett on my staff at all about this?
    Dr. Bruner. I talked with Nick and----
    The Chairman. Jenelle.
    Dr. Bruner. Yes, Jenelle Krishnamoorthy.
    The Chairman. Well, I want to get my appropriations people 
also involved. How long ago did you talk to them about this?
    Dr. Bruner. Oh, I think about a----
    The Chairman. I mean, about using CMMI for this.
    Dr. Bruner. Right, right.
    The Chairman. Thanks very much, Charlie. Thank you for your 
leadership on these issues for so many years here in the State 
of Iowa. We appreciate it.
    Anybody else? Somebody back here?
    Ms. Walter. Good morning. My name is Stacey Walter, and I 
just wanted to speak on behalf of community child care. It 
seems that when we have conversations around birth-to-5, it 
always ends up landing on that 4-year-old preschool and pre-K 
education.
    I happen to work in the coalition that Gabi is a part of, 
and I'm a community partner with Susie in the Des Moines Public 
School District and oversee three of the programs. What I 
wanted to say was as we talk about expanding access for those 
4-year-olds, keeping in mind that in community child care, it's 
the 4-year-olds that make or break that child care program, 
because the way that a ratio works in State child care, infants 
are served at a ratio of 1 to 4, while preschoolers are 1 to 
12. So, obviously, that's where they make their money.
    So just taking into consideration--if we are trying to 
increase access to that statewide preschool program and 
increase to 85 percent of our children being served in that 
program, remember that in community child care, then, we're 
going to take away that potential income. What will happen--
when it takes two to three preschool children to support an 
infant program in community-based child care, we would 
essentially be eliminating some possible infant slots in 
community-based child care if that would happen to be the case, 
and expanding those community partnerships.
    Also remembering that, currently, the way the funding works 
in a community partnership, those funds are limited to just 
that classroom and the personnel in that classroom. It doesn't 
go into the general fund of the community child care program. 
Hence, you still need to be serving 4-year-olds on top of the 
statewide voluntary 4-year-old children in the program, so that 
you, in turn, can continue to serve your infants and toddlers.
    So just something to keep in mind is that in communities, 
especially those rural areas where we're really struggling to 
provide quality community child care, if we start to really 
eliminate those 4-year-old opportunities in the business sense, 
it will start to have an impact, then, on the bottom line of 
the overall program.
    Thank you.
    The Chairman. I understand that.
    Anybody else have something they wanted to add?
    Ms. Davis. Judy McCoy Davis. Hi, there, Senator. I serve as 
chair of Polk County Early Childhood and previously served as 
the chair of Early Childhood Iowa. I want to commend you for 
doing this work and being such a strong supporter of early 
childhood efforts.
    But I want to encourage you that whenever you meet with 
business people, that you ask them what they're doing to 
support it, because while the studies all show business gains 
greatly when early childhood is supported, if you really look 
at what they're doing legislatively, we're not high on their 
priorities. When I speak to Rotary Clubs and others, I say this 
is a time when I can combine my business background and my 
passion. But we really need more business people in forums like 
this.
    The Chairman. Well, as I said, Judy, the U.S. Chamber of 
Commerce just came out with a report saying: this is what we've 
got to be doing. So I would hope the business community--and I 
think the Iowa Business Council has been very strong on this, 
haven't they, Herman?
    Senator Quirmbach. Yes. Elliott Smith has come to talk to 
the Senate Education Committee from the Iowa Business Council. 
We have some real standout supporters, Principal Insurance, for 
example. I should not just list one or two, but, generally 
speaking, some people speaking out have been very supportive 
from the business community. Of course, we could always use 
more support.
    The Chairman. That's true. And it does all come down--not 
all, but most of it comes down to resources, money. Are the 
people of Iowa willing to use their tax money for this? Are the 
people of Des Moines or different school districts--are they 
willing to step up? Because what we're talking about is, as I 
said earlier, pay now or pay later, and when you pay later, you 
pay in very detrimental ways.
    But people have to understand that if we want this, we're 
going to have to pay for it. It's not free. And if you want 
high-quality--I mean, you can get education on the cheap, and 
then you've got cheap education.
    But if you want high-quality early childhood, especially in 
that early birth-to-3, and you want really good daycare, and 
you want qualified people with those kids, and you want good 
home visits and parental involvement and making sure kids get 
their dental work, and their other healthcare is attended to, 
and nutrition, and sociability, and then making sure they get 
the right intellectual stimulus between ages 0 and 3, it costs 
money.
    We all wish we had those two-parent families and someone at 
home who would do that at home. But that's not the society 
we're in right now. We just don't have that. So we're going to 
have to pay for that.
    Anybody else?
    Ms. Lowery. My name is Kameka Lowery. It's K-a-m-e-k-a. I 
just wanted to say that there is support in Central Iowa. I am 
a director of Women's Leadership Connection, which is a part of 
United Way of Central Iowa. You've heard it a couple of times 
here today. I am a part of and help represent over 600 women in 
Central Iowa that's dedicated just this past year over $1.6 
million specifically to this area, and it has accumulated to 
almost $20 million in the past 11 years.
    So there are people who are very vested in this and do see 
the outcomes, and that is the purpose of these over 600 women 
coming together and filling in those gaps and trying to help 
make up the difference that really does show those measurable 
outcomes. So there is definitely passion within the State and 
dedication toward this particular area.
    The Chairman. That's very impressive. I didn't know that.
    Anything else? We've got one right here. Go ahead.
    Ms. Burns. Good morning, Senator Harkin. I'm Ellie Burns 
from Iowa TRIO. I just wanted to say thank you for the work 
that you're doing with early childhood. TRIO programs start 
working with students in sixth grade, and if we can work with 
students who have been told since they're 4 years old that they 
can be successful in their education, it's just helping our 
advocacy efforts that much more. So thank you.
    The Chairman. Well, thank you for those kind words.
    Ms. Russell. I'm Judy Russell, and I work for Drake 
University Head Start. I moved here from a different State, a 
State that has defunded most of their early childhood programs. 
So coming to Iowa was a breath of fresh air, because we really 
do know how to do it here. We are really a model.
    Someone once told me if we had the Great Lakes in Iowa, we 
would call them the Really Pretty Good Lakes. Well, people 
should come and look at what happens here, what happens at 
school districts, what happens in Head Start, what happens in 
child care centers, because, truly, Iowa really does have it 
together. And my view from the very cheap seats, not being a 
native Iowan, is that a lot of it is because of your 
leadership.
    So thank you for what you've done for early childhood in 
Iowa and the Nation. And send your people here to look at Iowa, 
because it's really exceptional. Thank you.
    The Chairman. Well, you're nice to say that. Thank you. 
I'll have to spread that around. Herman and Charlie Bruner have 
been working--there's so many here in Iowa who have been 
working on this for a long time and on both sides of the 
political aisle, too, I might add. And the business community 
has been very good in Iowa. We've had good support.
    I guess sort of the old thing about being an Iowan is that 
we do some good things in this State, and this is one of them. 
But how do I say this? Yes, we're OK. But we can be a lot 
better. I guess that's what I'm trying to say. We've got a good 
floor on this. We've got a good establishment out there. Now we 
just need to go from what, 65 to 85, or whatever that is, and 
then we have to do what Charlie Bruner said. We've really got 
to focus on that 0 to 3 age group. So let's not rest on our 
laurels. Let's keep pushing Iowa to higher and higher 
standards.
    But you're right. From my standpoint of chair of this 
committee and looking at the rest of the country, we are very 
fortunate here in this State. We've got good leadership here, 
both political leadership and civic leadership around the 
State, and our various organizations have been very good.
    So I guess I could say we're so good we don't have to do 
anything else. But that's not quite right. What I'm trying to 
do with this legislation is get this nationwide, all over the 
country.
    Any last thing that I need to do before I gavel this thing 
to a close? I don't have a gavel, but----
    Ms. Gallentine. Senator Harkin, if I may----
    The Chairman. Oh, I'm sorry.
    Ms. Gallentine. Gabi, right here.
    The Chairman. Oh, I'm sorry, Gabriela.
    Ms. Gallentine. I beg your pardon. If I may, first of all, 
I want to thank you for including the language regarding 
comprehensive services for children and families, because it 
does take parental involvement for children to succeed, and as 
much as possible, that needs to be included. Home visitation 
and--if you would, please remember to consider that those kinds 
of support services need to be provided as closely located to 
where the children are receiving their services, if not onsite.
    We see tremendous growth in children who are served onsite. 
Many of them are able to exit out of speech and occupational 
therapy before they move on to the 4-year-old room. So that is 
of critical importance for that birth to age 3. And I thank you 
for including that language regarding comprehensive services 
and parental involvement. That is key.
    The Chairman. We didn't talk much about that today, and I'm 
ready to close this hearing down. But we all know--I mean, it's 
sort of intuitive, but we know it from data, too, that these 
kids do a lot better when you get the parents involved, not 
just in dropping them off, but being involved in the whole 
aspect, and that is especially true in that 0-to-3 age group.
    But you're right. We've got to continue to have parental 
involvement, coaching, mentoring, things like that to help 
these parents, because they want to do the right thing. A lot 
of times, they just don't know what to do, and they have busy 
lives. They're working all the time, and they just don't know 
what to do a lot of times. So they need that kind of help and 
support. So thanks for mentioning that before we close up here 
today.
    I want to thank our witnesses for sharing their expertise 
and views and providing their insight and for the work that 
you're doing right now. I thank my colleagues. I especially 
want to thank Senator Alexander, our Ranking Member, for his 
partnership on this hearing. Again, I request that the record 
remain open for 10 days until March 24th for people to submit 
statements and additional questions for the record.
    If there's nothing more to come before the committee, the 
committee is adjourned. Thank you very much, everyone.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                                    March 19, 2014.

    Dear Senator Harkin: Thank you for coming to Des Moines to hold 
your hearing on the bill you are sponsoring, Strong Start for America's 
Children Act.
    Pre-School is now being offered in a patchwork, fragmented manner 
and is not covering the need of many of our young children. We need to 
provide all day pre-school, for all 4-year-olds, especially kids living 
in poverty. There needs to be a streamlined funding source that is 
consistent and reliable. The Des Moines District is currently receiving 
funding from five different funding sources, all with different rules 
and regulations. The time to braid all of the funding sources and then 
apply them to the children we serve could be better spent.
    Some suggestions I would like you to consider:

    1. Head Start should cover the children 0-3--Head Start would 
provide the services and the programs geared to 0-3 age bracket. It 
could be kept under HHS.
    2. Move all 4-year-old pre-school programs to the Department of 
Education--Pre-K programs should be geared for academics and is a 
better fit if it would be under the Department of Education.
    3. Review all dollars being spent in the area for children of 0-5 
and re-allocate based on best practices and research. One example of 
dollars not reaching the students is the following:

    <bullet> Head Start allocates money to the Grantee and then they 
award dollars to the Delegate--In the case of Des Moines, Drake is the 
Grantee and DMPS is the Delegate. We serve 50% of the students and 
receive around 33 percent of the dollars. Head Start sends a team of 
people out every few years to evaluate the program; this must cost the 
government thousands of dollars. Let the dollars be allocated to where 
the needs are, not in administrative bureaucracy. I am sure there are 
other examples of programs that have been set up for years and exist 
because they always have.

    I applaud the work you are doing on this very important issue, if 
we are going to improve educational outcomes for children in this 
country we must provide them with the start they deserve.

            Sincerely,
                                             Connie Boesen,
                                           Des Moines School Board.

    [Whereupon, at 11:07 a.m., the hearing was adjourned.]

                                   

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
